No. 20In the

Supreme Court of the United States
MIKHAIL FRIDMAN, PETR AVEN,
AND GERMAN KHAN,
Petitioners,
v.
ORBIS BUSINESS INTELLIGENCE LIMITED
AND CHRISTOPHER STEELE,
Respondents.
On Petition for a Writ of Certiorari to the
District of Columbia Court of A ppeals

PETITION FOR A WRIT OF CERTIORARI
Kim Hoyt Sperduto
Marian K. Riedy
Joshua S. K auke
Sperduto Thompson
& Gassler PLC
1747 Pennsylvania Avenue,
NW, Suite 1250
Washington, DC 20006
(202) 408-8900

A lan S. Lewis
Counsel of Record
John J. Walsh
Carter Ledyard
& Milburn LLP
Two Wall Street
New York, NY 10005
(212) 732-3200
lewis@clm.com

Rodney A. Smolla, Esq.
4601 Concord Pike
Wilmington, DE 19803
(302) 477-2278
Counsel for Petitioners
299868

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
1.

When the District of Columbia Anti-SLAPP Act is
applied to a lawsuit, the plaintiff is required to produce
legally sufficient evidence for his claim, prior to the
conduct of any discovery. In a defamation lawsuit,
does the application of the Act to dismiss the claim of
a public figure plaintiff—not afforded any discovery
into the mental state of the defendant—violate the
Due Process Clause and the principles laid down by
the Court in Herbert v. Lando, when the dismissal is
based on the plaintiff’s failure to produce evidence
of the defendant’s subjective mental state of “actual
malice”?

2.

Whether, in the absence of any guidance from this
Court on the scope of a “particular public controversy”
giving rise to the defamation, the District of Columbia
Court of Appeals’ application of Gertz v. Robert
Welch, Inc. was erroneously and unconstitutionally
overbroad?

ii
LIST OF PARTIES
Respondents are Orbis Business Intelligence Limited
and Christopher Steele. Respondents are represented by:
Christina Hull Eikhoff
Kristin Ramsay
ALSTON & BIRD LLP
1201 West Peachtree Street
Atlanta, GA 30309
(404) 881-7000
Kelley C. Barnaby
ALSTON & BIRD LLP
950 F Street, NW
Washington, DC 20004
(202) 239-3687
Petitioners are Mikhail Fridman, Petr Aven, and
German Khan. Petitioners are represented by:
Alan S. Lewis, counsel of record
John J. Walsh
CARTER LEDYARD & MILBURN LLP
2 Wall Street
New York, NY 10005
(212) 238-8647

iii
Kim Hoyt Sperduto
Marian K. Riedy
Joshua S. Kauke
SPERDUTO THOMPSON & GASSLER
1747 Pennsylvania Avenue, NW, Ste. 1250
Washington, DC 20006
(202) 408-8900
RODNEY A. SMOLLA
4601 Concord Pike
Wilmington, DE 19803
(302) 477-2278

iv
STATEMENT OF RELATED CASES
• Fridman v. Orbis Business Intelligence Limited, No.
18-CV-919, District of Columbia Court of Appeals.
Judgment entered June 18, 2020.
• Khan v. Orbis Business Intelligence Limited, Case
No. 2018 CA 002667, Superior Court of the District of
Columbia, Civil Division. Order filed August 20, 2018.

v
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
LIST OF PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
STATEMENT OF RELATED CASES . . . . . . . . . . . . . iv
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . v
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
PETITION FOR WRIT OF CERTIORARI . . . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 3
Introduction  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
The State Court Proceedings – D.C. Superior
Court  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
The State Court Proceedings – D.C. Court of
Appeals  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

vi
Table of Contents
Page
REASONS FOR GRANTING THE WRIT . . . . . . . . . 11
POINT I
Certiorari Is Warranted to Resolve the
Conf lict Between the D.C. A nti-SLA PP
Statute’s Foreclosure of Discovery and the
Limitation Established by Herbert v. Lando
on the New York Times “Fault” Doctrine . . . . . . . . 11
POINT II
T h e Pe t i t i o n S h o u l d B e G r a n t e d t o
Provide Lower Courts Modern Guidance
on Answering an Important Question of
Federal Law: How to Determine the Scope
of the “Particular Controversy Giving Rise
to the Defamation” Under Gertz . . . . . . . . . . . . . . . . 23
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N ION O F T H E
DISTRICT OF COLUMBIA COURT OF
APPEALS, DATED JUNE 18, 2020 . . . . . . . . . . . . 1a
A P P E N DI X B — O P I N ION O F T H E
SUPERIOR COURT OF THE DISTRICT
OF C OLU M BI A , C I V I L DI V I S ION,
DATED AUGUST 20, 2018 . . . . . . . . . . . . . . . . . . . . 36a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
Anaya v. CBS Broad., Inc.,
626 F. Supp. 2d 1158 (D.N.M. 2009)  . . . . . . . . . . . . . 26
Araya v. Deep Dive Media, LLC,
966 F. Supp. 2d 582 (W.D.N.C. 2013)  . . . . . . . . . . . . 27
Borough of Duryea v. Guarnieri,
564 U.S. 379 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Clark v. Am. Broad. Cos., Inc.,
684 F.2d 1208 (6th Cir. 1982) . . . . . . . . . . . . . . . . . . . 25
Competitive Enter. Inst. v. Mann,
150 A.3d 1213 (D.C. 2016) . . . . . . . . . . . . . . . . . . . . . . 12
Cottrell v. Nat’l Collegiate Athletic Ass’n,
975 So. 2d 306 (Ala. 2007)  . . . . . . . . . . . . . . . . . . . . . 25
Curtis Pub. Co. v. Butts,
388 U.S. 130 (1967) . . . . . . . . . . . . . . . . . 1, 7, 19, 23, 24
Damon v. Ocean Hills Journalism Club,
85 Cal. App. 4th 468 (Cal. Ct. App. 2000) . . . . . . . . . 22
Deripaska v. Associated Press,
282 F. Supp. 3d 133 (D.D.C. 2017) . . . . . . . . . . . . . 33

ix
Cited Authorities
Page
Doe v. Coleman,
497 S.W.3d 740 (Ky. 2016) . . . . . . . . . . . . . . . . . . . . . . 22
Fitzgerald v. Penthouse Int’l Ltd.,
691 F.2d 666 (4th Cir. 1982) . . . . . . . . . . . . . . . . . . . . 25
Fridman v. Bean LLC,
2019 U.S. Dist. LEXIS 7874
(D.D.C. Jan. 15, 2019) . . . . . . . . . . . . . . . . . . . . .  7, 9, 13
Gertz v. Robert Welch, Inc.,
418 U.S. 323 (1974)  . . . . . . . . . . . . . . . . . . . . . . . passim
Harris v. Tomczak,
94 F.R.D. 687 (E.D. Cal. 1982) . . . . . . . . . . . . . . . . . . 26
Hatchard v. Westinghouse Broad. Co.,
532 A.2d 346 (Pa. 1987)  . . . . . . . . . . . . . . . . . . . . . . . 22
Herbert v. Lando,
441 U.S. 153 (1979)  . . . . . . . . . . . . . . . . . . . . . . . passim
Hutchinson v. Proxmire,
443 U.S. 111 (1979)  . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Lafayette Morehouse, Inc. v.
Chronicle Publishing Co.,
37 Cal. App. 4th 855 (Cal. Ct. App. 1995) . . . . . . 21, 22

x
Cited Authorities
Page
Lerman v. Flynt Distributing Co., Inc.,
745 F.2d 123 (2d Cir. 1984) . . . . . . . . . . . . . . . . . . 25, 27
Little v. Breland,
93 F.3d 755 (11th Cir. 1996) . . . . . . . . . . . . . . . . . . . . 25
Marchiondo v. Brown,
649 P.2d 462 (N.M. 1982) . . . . . . . . . . . . . . . . . . . . . . 22
Moss v. Stockard,
580 A.2d 1011 (D.C. 1990) . . . . . . . . . . . . . . . . . . . . . . 29
New York Times v. Sullivan,
376 U.S. 254 (1964)  . . . . . . . . . . . . . . . . . . . . . . . passim
OAO Alfa Bank v. Center for Public Integrity,
387 F. Supp. 2d 20 (D.D.C. 2005) . . . . . . . . . . . . . . . . 32
Rosanova v. Playboy Enterprises, Inc.,
411 F. Supp. 440 (S.D. Ga. 1976), aff ’d,
580 F.2d 859 (5th Cir. 1978) . . . . . . . . . . . . . . . . . . . . 24
Rosenblatt v. Baer,
383 U.S. 75 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Rosenbloom v. Metromedia, Inc.,
403 U.S. 29 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . . 30, 31
Rosser v. Clyatt,
821 S.E.2d 140 (Ga. Ct. App. 2018) . . . . . . . . . . . . . . 21

xi
Cited Authorities
Page
State ex rel. Suriano v. Gaughan,
480 S.E.2d 548 (W. Va. 1996) . . . . . . . . . . . . . . . . . . . 25
Tavoulareas v. Piro,
93 F.R.D. 35 (D.D.C. 1981) . . . . . . . . . . . . . . . . . . . . . 22
The Garment Workers Center v. Superior Court,
117 Cal. App. 4th 1156 (Cal. Ct. App. 2004) . . . . . . . 21
Time, Inc. v. Firestone,
424 U.S. 448 (1976) . . . . . . . . . . . . . . . . . . . . . . . passim
Waicker v. Scranton Times Ltd. P’ship,
688 A.2d 535 (Md. Ct. Spec. App. 1997) . . . . . . . . . . 25
Waldbaum v. Fairchild Publications, Inc.,
627 F.2d 1287 (D.C. Cir. 1980) . . . . . . . . . . . . . . passim
Wolston v. Reader’s Digest Association, Inc.,
443 U.S. 157 (1979)  . . . . . . . . . . . . . . . . . . . . . 30, 31, 32
Warford v. Lexington Herald-Leader Co.,
789 S.W.2d 758 (Ky. 1990) . . . . . . . . . . . . . . . . . . .  24-25
Statutes
28 U.S.C. § 1257(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
28 U.S.C. § 1257(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

xii
Cited Authorities
Page
D.C. Code § 16-5501 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
D.C. Code § 16-5502 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3, 5
D.C. Code § 16-5502(b)  . . . . . . . . . . . . . . . . . . . . . . . . . 2, 5
D.C. Code § 16-5502(c) . . . . . . . . . . . . . . . . . . . . . . . . . 2, 11
HR 2304, 114th Cong. (2015) . . . . . . . . . . . . . . . . . . . . . . 14
HR 7771, 116th Cong. (2020) . . . . . . . . . . . . . . . . . . . . . . 14
O.C.G.A § 9-11-11.1(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
O.C.G.A § 9-11-11.1(b)(2)  . . . . . . . . . . . . . . . . . . . . . . . . . 20
U.S. Const. Amend. I . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. Amend. V  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
U.S. Const. Amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Other Authorities
2019-2020 N.Y. Senate-Assembly Bill S52A,
A5991A (Nov. 10, 2020) . . . . . . . . . . . . . . . . . . . . . . . . 14

xiii
Cited Authorities
Page
Andrew Rome, Green Mountain Balancing
Act: Expl o r in g th e Co nstitutio n ality
o f Ve r m o n t ’ s A n t i - S L A PP S t a t u t e ,
41 Vt. L. Rev. 429 (2016) . . . . . . . . . . . . . . . . . . . . . . . 14
Andrew L. Roth, Upping the Ante: Rethinking
Anti-SLAPP Laws in the Age of the Internet,
20 BYU L. Rev. 741 (2016) . . . . . . . . . . . . . . . . . . . . . 16
C a r l W i l l n e r, D e f i n i n g A P u b l i c
Controversy in the Constitutional Law
of Defamation, 69 Va. L. Rev. 931 (1983) . . . . . . . . . 26
Ju a n C h ava r r i a , Jav ie r F lor e s , S a l m a n
Mo s t a f a , a n d M a r i a n R i e d y, W ho i s
‘SLAPPing’ Whom? (March 5, 2020) . . . . . . . . . . . . 14
Lee Levine, Judge And Jury In The Law Of
Defamation: Putting The Horse Behind
The Cart, 35 A m. U. L. Rev. 1 (1985)  . . . . . . . . . . . . 19
R o d n e y S m o l l a , L aw o f D e fa m a t i o n
§ 2:21 (2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
William P. Robinson III, et. al., The Tie Goes
to the Runner: The Need for Clearer and
Mo re Prec i se Cr it er i a Regar din g th e
Publi c Fi gure in Defam a ti o n Law,
42 U. Haw. L. Rev. 72 (2019)  . . . . . . . . . . . . . . . . . . . 25

xiv
Cited Authorities
Page
Rules
Sup. Ct. Rule 29.4(c) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Civ. P. 12(b)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

1
PETITION FOR WRIT OF CERTIORARI
Mikhail Fridman, Petr Aven, and German Khan
respectfully petition for a writ of certiorari to review
the decision of the District of Columbia Court of Appeals.
OPINIONS BELOW
The opinion of the District of Columbia Court of
Appeals (1a-35a) is available at 229 A.3d 494. The opinion
of the Superior Court for the District of Columbia
(36a-66a) is unreported.
JURISDICTION
The final judgment of the District of Columbia Court
of Appeals was entered on June 18, 2020. This Court’s
March 19, 2020 Order extended the deadline to file a
petition for a writ of certiorari to 150 days from the date of
the lower court judgment. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1257(a) and (b). The notification
required by Rule 29.4(c) has been made.
RELEVANT CONSTITUTIONAL
AND STATUTORY PROVISIONS
The First Amendment to the Constitution of the
United States provides:
Congress shall make no law respecting an
establishment of religion, or prohibiting the
free exercise thereof; or abridging the freedom
of speech, or of the press, or the right of the
people peaceably to assemble, and to petition
the Government for a redress of grievances.

2
T he Fi f th A mendment to the Un it ed St at es
Constitution provides, in pertinent part:
[n]o person shall be . . . deprived of . . . liberty,
or property, without due process of law.
The Fourteenth Amendment to the Constitution of
the United States provides, as relevant here:
[N]or shall any State deprive any person of . . .
liberty, or property, without due process of law;
nor deny to any person within its jurisdiction
the equal protection of the laws.
District of Columbia Code §16-5502(b) provides:
If a party filing a special motion to dismiss
under this section makes a prima facie showing
that the claim at issue arises from an act in
furtherance of the right of advocacy on issues of
public interest, then the motion shall be granted
unless the responding party demonstrates that
the claim is likely to succeed on the merits, in
which case the motion shall be denied.
District of Columbia Code §16-5502(c) provides:
(1) Except as provided in paragraph (2) of this
subsection, upon the filing of a special motion to
dismiss, discovery proceedings on the claim shall
be stayed until the motion is disposed of.
(2) When it appears likely that targeted discovery
will enable the plaintiff to defeat the motion and
that the discovery will not be unduly burdensome,

3
the court may order that specified discovery be
conducted. Such an order may be conditioned
upon the plaintiff paying any expenses incurred
by the defendant in responding to such discovery.
STATEMENT OF THE CASE
Introduction
Christopher Steele and his company, Orbis Business
Intelligence Limited (“Respondents”), are the authors
and publishers of the now infamous “Steele Dossier,” a
collection of seventeen memos created as part of a political
opposition research project for the Hillary Clinton
Campaign in 2016. All but one of those seventeen memos
made allegations about then presidential candidate Donald
Trump and his purported illicit connections to Russia. The
one memo that did not mention Trump or his campaign
became the subject of this lawsuit. Labeled “Company
Intelligence Report 112” (“CIR 112”)1, that memo had
a different theme. It alleged that three individuals,
Mikhail Fridman, Petr Aven, and German Khan (the
Plaintiffs below and Petitioners here), have a corrupt
relationship with Vladimir Putin involving bribery and
other misconduct. 2
1. Defendants’ Memorandum of Points and Authority in
Support of Contested Special Motion to Dismiss Under the District
of Columbia Anti-SLAPP Act, D.C. Code § 16-5502 at Ex. B, Aven
v. Orbis Business Intelligence Limited, Case No. 2018 CA 002667
(D.C. Super. Ct. May 30, 2018).
2. CIR 112 is headlined “RUSSIA/US PRESIDENTIAL
ELECTION: KREMLIN ALPHA GROUP CO-OPERATION.”
The body of CIR 112 does not attempt to support or otherwise
address the notion that the “Alpha Group” or Petitioners
cooperated with the Kremlin regarding the 2016 presidential

4
Respondents published the defamatory statements in
the fall of 2016 by providing, directly and through agents,
orally and in writing, the content of those defamatory
statements to members of the media and others. 5a-6a,
39a, 49a-50a. The defamatory statements, as well as
the sixteen other memos that came to be defined by the
media singularly as the “Dossier,” were first published
in the media on January 10, 2017. 39a. On that date,
the website of BuzzFeed, Inc. published a story titled
“These Reports Allege Trump Has Deep Ties To Russia”
(the “BuzzFeed Article”). See id. All seventeen Dossier
Reports authored by Steele were attached to the online
BuzzFeed Article, including CIR 112 and its statements
defaming Petitioners. Id.
On April 16, 2018, Petitioners filed a Complaint against
Respondents in the Superior Court for the District of
Columbia asserting a claim for defamation. 6a.
The State Court Proceedings – D.C. Superior Court
Respondents moved to dismiss Petitioners’ defamation
Complaint (the “Special Motion to Dismiss”) under the
District of Columbia Anti-SLAPP Act of 2010, D.C. Code
§ 16-5501, et seq. (the “D.C. Anti-SLAPP Act”). See 3a, 36a.
Under the D.C. Anti-SLAPP Act, if the Respondents made
“a prima facie showing that the claim at issue arises from
an act in furtherance of the right of advocacy on issues
of public interest,” then the motion was to be granted
“unless the responding party demonstrates that the
election. But its heading, even though completely unsupported by
anything in the body of CIR 112, defamed Petitioners by implying
that they and their company “Alpha” were cooperating with the
Kremlin regarding the 2016 election.

5
claim is likely to succeed on the merits.” D.C. Code § 165502(b). Simultaneously, Respondents’ motion triggered
an automatic discovery stay:
(c)(1) Except as provided in paragraph (2) of
this subsection, upon the filing of a special
motion to dismiss, discovery proceedings on
the claim shall be stayed until the motion has
been disposed of.
(2) When it appears likely that targeted
discovery will enable the plaintiff to defeat
the motion and that the discovery will not be
unduly burdensome, the court may order that
specified discovery be conducted. Such an order
may be conditioned upon the plaintiff paying
any expenses incurred by the defendant in
responding to such discovery.
D.C. Code § 16-5502.
Respondents argued in their Special Motion to
Dismiss that Petitioners were “public figures at least for
the limited purpose of this case.” 3, 4 As limited purpose
public figures, Petitioners would be required to prove “by
clear and convincing evidence—that defendants acted
with actual malice.” 42a. Thus, according to Respondents,
3. Defendants’ Memorandum of Points and Authority in
Support of Contested Special Motion to Dismiss Under the District
of Columbia Anti-SLAPP Act, D.C. Code § 16-5502 at 9, Aven v.
Orbis Business Intelligence Limited, Case No. 2018 CA 18-2667
(D.C. Super. Ct. May 30, 2018); see also 56a.
4. Petitioners dispute that they are limited purpose public
figures.

6
Petitioners were required to prove in their briefing that
Respondents “either (1) had subjective knowledge of the
statement’s falsity, or (2) acted with reckless disregard
for whether or not the statement was false.” 43a.
In opposing the Special Motion, Petitioners requested
leave to conduct discovery, asserting that the evidence
required to show that Respondents “drafted and/or
disseminated [CIR 112] with actual knowledge of or
subjective doubts about its falsity” was “exclusively”
w ithin Respondents’ control. 5 Citing this Court’s
precedents, Petitioners contended that they were entitled
to discovery on the issue of actual malice in order to show
a likelihood of success on the merits:
In [Herbert v. Lando, 441 U.S. 153 (1979)], the
Supreme Court held that defamation plaintiffs
burdened with proof of actual malice are
entitled to discovery on a media defendant’s
editorial process as a constitutional matter. 441
U.S. at 169-70, 175. Lando’s claim of editorial
privilege was rejected because it would
impermissibly increase the burden on libel
plaintiffs to demonstrate actual malice, and
likely inhibit their ability to do so. 6
Petitioners also sought discovery to explore the reason
that Respondents were engaged to produce and publish
5. Memorandum of Points and Authorities in Opposition
to Defendants’ Special Motion to Dismiss the Complaint Based
on the D.C. Anti-SLAPP Statute at 24, Aven v. Orbis Business
Intelligence Limited, Case No. 2018 CA 18-2667 (D.C. Super. Ct.
July 6, 2018).
6. Id. at 25.

7
CIR 112 in the first place. That is, under Gertz v. Robert
Welch, Inc., 418 U.S. 323, 352 (1974), what controversy was
it that gave rise to the defamation? Petitioners contended
that the controversy giving rise to CIR 112 (and all of
Steele’s other reports) was a controversy related to the
2016 election—Donald Trump and his purported collusion
with Russia—and Petitioners further argued that
discovery was likely to supply evidence for this definition
of the controversy.7 There is no evidence in the record
that Petitioners attempted to influence the outcome of
any controversy involving the 2016 election.
On August 20, 2018, the Superior Court for the
District of Columbia granted Respondents’ Special
Motion to Dismiss, concluding that the D.C. Anti-SLAPP
Act required dismissal of the case because Respondents
had made a prima facie case that the Act applied to the
lawsuit and Petitioners, as limited purpose public figures,
had failed to submit evidence that Respondents “knew
any of this information was false or acted with reckless
disregard of its falsity.” 37a. 8 Concerning Petitioners’
request for discovery, the Court rejected Petitioners’
argument that Respondents were in exclusive control of
evidence necessary to prove actual malice:
7. Id. at 13-14.
8. In Fridman v. Bean LLC, 2019 U.S. Dist. LEXIS 7874,
*13-14 (D.D.C. Jan. 15, 2019), in which Petitioners assert a
defamation claim against the political opposition research firm
which commissioned CIR 112, and against the firm’s founder, the
court declined to resolve the issue of whether Petitioners were
public figures in denying the defendants’ motion to dismiss under
the D.C. Anti-SLAPP Act and Fed. R. Civ. P. 12(b)(6), concluding
that Petitioners’ public figure status should be assessed with the
benefit of discovery.

8
Plaintiffs have not shown a likelihood that
Defendants have information that will establish
actual malice by clear and convincing evidence.
If targeted discovery were justified solely by
the fact that a defendant in a defamation case is
the best, if not only, source of information about
his subjective knowledge of the truth or falsity
of the challenged statement, discovery would be
justified in every Anti-SLAPP Act case.
64a. The Court also rejected Petitioners’ reliance on
Herbert v. Lando:
Plaintiffs contend that “defamation plaintiffs
burdened with proof of actual malice are
entitled to discovery of a media defendant’s
editorial process as a constitutional matter.”
See Opp. at 24-25 (emphasis in original).
However, the Constitution does not entitle
plaintiffs in defamation cases to conduct fishing
expeditions.
***
Herber t holds only that in a case where
discovery is warranted, the First Amendment
does not allow a media entity to claim absolute
privilege over its editorial processes. See
Herbert, 441 U.S. at 158, 175. Herbert does not
hold that the Constitution gives an absolute
right to discovery by any plaintiff who has
the burden to show actual malice by clear and
convincing evidence and who can only speculate
that discovery will enable him to prove his case.
64a-65a.

9
The State Court Proceedings – D.C. Court of Appeals
On appeal, Petitioners raised the Herbert v. Lando
issue concerning their request for targeted discovery:
In light of the Supreme Court’s holding in
Herbert v. Lando, as well as the Act’s allowance
of targeted discovery when it “appears likely”
that such discovery will “enable the plaintiff to
defeat the motion,” whether the Superior Court
erred in holding that Plaintiffs were not entitled
to targeted discovery focused on identifying
the controversy giving rise to the publication
of CIR 112 and Defendants’ state of mind in
connection with its publication.9
Petitioners argued that denial of targeted discovery was
a violation of the D.C. Anti-SLAPP Act and due process
rights in view of their constitutional burden, as alleged
limited purpose public figures, to prove actual malice:
Given that Plaintiffs have been subjected to
such a burden, the Superior Court’s denial of
discovery even in light of the very real potential
for discovery to produce helpful evidence for
Plaintiffs was in substance the erection of the
“impenetrable barrier” foreclosing inquiry
into Defendants’ state of mind of the kind that
Herbert v. Lando disapproves.10
9. Brief of Appellants at 3, Fridman v. Orbis Business
Intelligence Limited, 18-CV-919 (D.C. Ct. App. Dec. 10, 2018).
10. Id. at 49-50.

10
The D.C. Court of Appeals rejected Petitioners’
due process argument, finding no error in the denial of
targeted discovery. It held that the standard for targeted
discovery under the D.C. Anti-SLAPP Act is “difficult to
meet,” and the party seeking targeted discovery “must be
able to articulate how targeted discovery will enable him
to defeat the special motion to dismiss” and show “that
it is ‘likely’ the discovery will produce that result.” 33a.
Without addressing either Petitioners’ Herbert v.
Lando analysis or the constitutional dimensions of the
“actual malice” standard, the Court of Appeals expressly
agreed with the trial judge “that if courts relied solely on
the premise that the defendants would have better access
to what was in their minds at the time of publication,
‘discovery would be justified in every Anti-SLAPP
Act case.’” 34a. Nor did the Court of Appeals address
whether discovery would have shed light on the scope of
“the controversy giving rise to the defamation.” While
the Court of Appeals found that “[t]he key issue in this
case is whether appellants can prove that CIR 112 was
published with actual malice,” it held that Petitioners had
failed to show from the evidence available to them “that
it ‘appears likely’ that information gained from deposing
appellees will enable them to defeat the special motion to
dismiss.” Id.
Petitioners also argued on appeal that in applying the
second prong of the Supreme Court’s decision in Gertz v.
Robert Welch, the Superior Court erred by failing properly
to focus its analysis on the controversy “giving rise” to
the defamatory statements, that is, “why CIR 112 was
published.” 22a. The Court of Appeals affirmed the trial
court’s ruling that Petitioners were limited purpose public
figures after broadly defining the controversy:

11
While gathering information about Mr. Trump
and his connections to Russia may have been
the motivation behind creating the dossier,
CIR 112 focuses on the preexisting controversy
surrounding Russian oligarchs and their
influence upon the Russian government. . . .
[T]he motivation leading to the creation of the
Steele Dossier does not compel us to define
the controversy differently than the Superior
Court did. 23a.
Significantly, the Court of Appeals justified its
analysis—as did the trial court—on the public’s interest
in matters Russian: “. . . we agree with the trial court that
the ‘U.S. public today continues to have a strong interest
in Russia’s relations with the United States and in the
political and commercial relationships between Russian
oligarchs and the Russian government.’” 21a.
REASONS FOR GRANTING THE WRIT
POINT I
Certiorari Is Warranted to Resolve the Conflict
Between the D.C. Anti-SLAPP Statute’s Foreclosure
of Discovery and the Limitation Established by
Herbert v. Lando on the New York Times “Fault”
Doctrine
Certiorari should be granted because the Court has
never addressed the important constitutional balancing
issues posed by state anti-SLAPP statutes. These
statutes, like District of Columbia Code §16-5502(c),
severely restrict discovery in defamation cases when
so applied, as they often are. This kind of restriction

12
on discovery is particularly harmful to the defamation
claims of public figures for whom it presents an apparently
insoluble conundrum. The claims of such plaintiffs, when
subjected to an anti-SLAPP standard, are dismissed if
the plaintiff does not produce evidence of the defendant’s
actual malice. See Competitive Enter. Inst. v. Mann,
150 A.3d 1213, 1233 (D.C. 2016) (holding that the D.C.
Anti-SLAPP Act “mandates the production or proffer of
evidence that supports the claim”). Yet many anti-SLAPP
statues, like the District of Columbia’s, automatically
deny plaintiffs (with limited exceptions) the discovery
needed to obtain evidence about the defendant’s actual
malice (or other subjective mental state). In this way, antiSLAPP statutes erect an impenetrable barrier for a public
figure who maintains he was defamed—requiring him to
prove the subjective mental state of the defendant whilst
simultaneously prohibiting such public figure plaintiffs
from obtaining any discovery from the defendant about
his subjective mental state.11
11. Subsequent to the Superior Court’s dismissal of
Petitioners’ claim, substantial evidence has been publicly released
demonstrating that Steele’s process of creating the Dossier reports
was a function of bias and such a departure from informationgathering norms as to support the permissive inference that
his act of publication was reckless. That evidence includes notes
from the Federal Bureau of Investigation’s interview of Steele’s
primary subsource, which reflect that Steele vastly overstated the
connections and knowledge of his main source and demonstrate
that, contrary to what is written in CIR 112, its allegations did
not originate with a “[t]op level Russian government official” but
were no more than the subsource’s “hypothes[es].” Federal Bureau
of Investigation Electronic Communication, February 9, 2017, at
50, available at https://www.judiciary.senate.gov/imo/media/doc/
February%209,%202017%20Electronic%20Communication.pdf.
Additional evidence is described in a decision from the English

13
The Court, in Herbert v. Lando, 441 U.S. 153 (1979),
rejected a similar ban on discovery of a defendant’s
mental state that arose from a different policy choice—
the “editorial privilege”—but Lando’s reasoning applies
equally as well here. “It is . . . untenable to conclude from
our cases that, . . . plaintiffs may not inquire directly
from the defendants whether they knew or had reason
to suspect that their damaging publication was in error.”
Id. at 160.
Since the adoption by the State of Washington of
High Court resolving claims against Steele relating specifically
to CIR 112, in which the court concluded that allegations about
Petitioners in CIR 112, such as that Fridman and Aven used
an intermediary “to deliver large amounts of illicit cash” to
Vladimir Putin, and that Fridman “met directly with Putin,”
were inaccurate. Aven v. Orbis Business Intelligence Ltd.,
[2020] EWHC 1812 (QB). Still more evidence was unearthed in
a report prepared by the U.S. Department of Justice Office of
Inspector General released in December 2019, which found that
Steele’s methods of gathering information were unreliable. See
Appellants’ Motion for Leave to Supplement the Record with the
December 9, 2019 Report of the Department of Justice’s Office
of the Inspector General at Ex. B, Fridman v. Orbis Business
Intelligence Limited, 18-CV-919 (D.C. Ct. App. Jan. 15, 2020).
The Inspector General’s Report shows that Steele’s publication of
CIR 112 arose from and related entirely to the 2016 presidential
election, which contradicts the Superior Court’s identification of
the applicable controversy for which the Petitioners were held to
be limited purpose public figures and thus subject to the burden
to show Respondents’ actual malice in publishing the defamatory
statements. The targeted discovery Petitioners requested in the
Superior Court could have enabled them to marshal evidence
in support of that contention and the evidence of Steele’s actual
malice, later revealed publicly—illustrating why making discovery
purely discretionary is constitutionally suspect.

14
the first anti-SLAPP statute in 1989, these procedural
mechanisms for the early dismissal of defamation and
related claims have proliferated. As of 2016, thirty-six
states had enacted anti-SLAPP statutes.12 Colorado joined
the group in 2019 and just a few days ago, on November
10, 2020, New York enacted an enhanced anti-SLAPP
statute.13 A federal anti-SLAPP bill was introduced in
Congress in 2015 and 2020.14
Understandably, the anti-SLAPP motion has become
a popular arrow in the quiver of counsel for defendants
in defamation cases. Over the last decade, in California
alone, between 200 and 300 anti-SLAPP motions have
been filed every year.15

12. Andrew Rome, Green Mountain Balancing Act:
Exploring the Constitutionality of Vermont’s Anti-SLAPP
Statute, 41 Vt. L Rev. 429, 430, ft. 12 (2016). It should be noted
that in some states without anti-SLAPP statutes, the courts have
fashioned some common law protection for the target of a SLAPP.
13. See 2019-2020 N.Y. Senate-Assembly Bill S52A, A5991A
(Nov. 10, 2020).
14. See Speak Free Act of 2015, H.R. 2304, 114th Cong.
(2015-216); Citizen Participation Act of 2020, H.R. 7771, 116th
Cong. (2019-2020).
15. After an initial period of relative quiescence following
the enactment of the statute in 1993, the use of anti-SLAPP
rapidly gained popularity, rising approximately 30% in the period
2001-2002, and 50% between 2002 and 2003. The number of cases
continued to climb, then roughly stabilized between 2007 and 2019.
During this latter period, the number of cases ranged between 211
and 284 per year. Juan Chavarria, Javier Flores, Salman Mostafa,
and Marian Riedy, Who is ‘SLAPPing’ Whom? (March 5, 2020)
(unpublished article) (on file with Marian K. Riedy).

15
Granting this Petition would afford the Court an
opportunity to right the disequilibrium that the antiSLAPP statutes create. On one side of the scales is the
policy goal of protecting persons who engage in some form
of public participation from meritless claims that target
them based on their public speech. But on the other side
of the scales sits a public value no less weighty: the First
Amendment right of public figures to petition the courts
for redress of reputational harm through procedures
that afford them due process. See Borough of Duryea v.
Guarnieri, 564 U.S. 379, 387 (2011) (“the right of access
to courts for redress of wrongs is an aspect of the First
Amendment right to petition the government”).
This Court has explained why a meaningful ability to
seek redress in the courts for reputational harm is basic
to our constitutional system:
The individual’s right to the protection of his
own good name “reflects no more than our
basic concept of the essential dignity and
worth of every human being—a concept at the
root of any decent system of ordered liberty.
The protection of private personality, like the
protection of life itself, is left primarily to the
individual States under the Ninth and Tenth
Amendments. But this does not mean that the
right is entitled to any less recognition by this
Court as a basic of our constitutional system.
Gertz, 418 U.S. at 341 (quoting Rosenblatt v. Baer, 383
U.S. 75, 92 (1966) (Stewart, J., concurring).

16
Another factor making the issue presented even
more consequential is the rise of the Internet as a forum
for public discourse. An untrue, harmful post easily
“goes viral,” re-victimizing the target thousands or even
millions of times. Thus, the Internet “amplifies the harm
caused by libelous publications.”16 It is, therefore, more
important than ever that a plaintiff (even one who is a
public figure) who has been the subject of defamatory
speech have the right to seek meaningful redress in a
court of law. If her claim can be dismissed based on her
inability to prove the private operation of the mind of the
publisher of the defamatory statement, in circumstances
where she is prevented from conducting any discovery
into the publisher’s state of mind, the historically sacred
right to seek meaningful redress for defamation would
almost be extinguished, at exactly the point in time when
technological innovation makes the sting of the defamatory
harm potentially permanent and its publication almost
unlimited.
Despite the inter vention of these sig nif icant
developments over the years—the emergence and global
adoption of the Internet and the enactment by a majority
of states of anti-SLAPP statutes—this Court has not
visited the important issues presented in this Petition.
Specifically, guidance is needed by this Court as to how
its line of cases beginning with New York Times Co. v.
Sullivan, 376 U.S. 254 (1964), fits into today’s radically
changed social, statutory, and media landscape.

16. Andrew L. Roth, Upping the Ante:—Rethinking AntiSLAPP Laws in the Age of the Internet, 2016 BYU L. Rev. 741,
751 (2016).

17
The Constitution sets a high bar for a limited purpose
public figure by requiring him to prove actual malice.
New York Times Co. v. Sullivan, altered defamation law
in the United States by requiring that a public official
prove “actual malice” in a defamation suit against a
media defendant. Id. at 279-80, 283. Curtis Publishing
Co. v. Butts, 388 U.S. 130, 155 (1967), extended the actual
malice requirement to actions by “public figures,” and
Gertz, 418 U.S. at 351-52, to a “limited purpose public
figure.”17 By definition, the issue of whether a publisher
acted with “‘actual malice’ calls a defendant’s state of
mind into question.” Hutchinson v. Proxmire, 443 U.S.
111, 120, n.9 (1979).
This Court’s decision in Herbert v. Lando, however,
cautions that the “high bar” of actual malice cannot be
insurmountable. Specifically, the Court in Lando refused
to erect “an impenetrable barrier” to a public figure
defamation plaintiff’s ability to prove “actual malice”
in the form of an “editorial process” claim of privilege
that would have precluded discovery of the news media
defendant’s state of mind. 441 U.S. at 170. Justice White’s
opinion traced both the need and inexorable logic of the
rule:
New York Times and its progeny made it
essential to proving liability that the plaintiff
focus on the conduct and state of mind of the
defendant. . . . Inevitably, unless liability is
to be completely foreclosed, the thoughts and
editorial processes of the alleged defamer would
17. Gertz and how properly to define a “limited purpose
public figure” are more fully addressed in Point II below.

18
be open to examination. It is also untenable to
conclude from our cases that, . . . plaintiffs
may not inquire directly from the defendants
whether they knew or had reason to suspect
that their damaging publication was in error.
Id. at 160 (emphasis added). The Court has emphasized
that the actual malice standard “does not readily lend
itself to summary disposition.” Hutchinson, 443 U.S. at
120, n.9. Thus, this Court has recognized since at least
1979 that because proof of actual malice is required of a
public figure, or limited purpose public figure as defined by
Gertz, that enquiry into the defamation defendant’s state
of mind is essential “unless liability is to be completely
foreclosed.” Lando, 441 U.S. at 160. But that is exactly
what happened to Petitioners when the trial court denied
any limited discovery into Respondents’ state of mind.
Petitioners’ path to liability was completely foreclosed.
Anti-SLAPP statutes like D.C. Code § 16-5502(c)
(2) effectively preclude discovery into the very issue—
defendants’ state of mind—libel plaintiffs must prove
to establish liability. The anti-SLAPP statute forecloses
any opportunity for a defamation plaintiff, in the words
of the D.C. statute, to demonstrate “the claim is likely
to succeed on the merits.” The D.C. Act thus precludes
discovery unless it is “likely that the targeted discovery
will enable the plaintiff to defeat the motion.” D.C. Code
§ 16-5502(c)(2).
This is a Catch-22—and fatal to limited purpose
public figures who can almost never satisfy these mutually
conflicting dependent conditions. While Herbert v. Lando
acknowledges that it would be “untenable” to erect a
process under which “plaintiffs may not inquire directly
from the defendants” with respect to their state of mind

19
to satisfy the “actual malice” standard of New York Times
and Butts, the trial court and D.C. Court of Appeals
forbade that very inquiry. 441 U.S. at 160. That dissonance
is tantamount to a denial of due process; it is, in short,
“untenable.”18 This Court should grant certiorari to
harmonize the interplay of the First Amendment, Herbert
v. Lando, due process, and the individual’s right to his
good name, all in the new context of new and proliferating
anti-SLAPP statutes and the almost infinite dissemination
capacity of the Internet.
The D.C. Court of Appeals ignored that interplay
altogether, limiting its discovery analysis to the questions
of statutory interpretation and abuse of discretion. The
Court of Appeals attempted to explain that the D.C. statute
“creates a standard that is difficult to meet” by engaging
in an exegesis of the legislative history. 32a-33a. But that
analysis was nothing more than a tautology that ended
up where it began—the “likely that targeted discovery
will enable the plaintiff to defeat the motion” standard:
“He must be able to articulate how targeted discovery
will enable him to defeat the special motion to dismiss.
He must also show that it is ‘likely’ the discovery will
produce that result.” 33a.19 But while the Court of Appeals
18. Cf. Lee Levine, Judge And Jury In The Law Of
Defamation: Putting The Horse Behind The Cart, 35 A m. U. L.
Rev. 3, 21 (1985) (“The Supreme Court in Herbert . . . held that such
a testimonial privilege would substantially increase the burden of
proving actual malice, a result contrary to the intent of New York
Times, Butts, and similar cases.”).
19. The Court of Appeals also expressed concern that if it
allowed targeted discovery into the issue of malice for a limited
purpose public figure “discovery would be justified in every
Anti-SLAPP Act case.” 34a. That is a red herring. Only in those
anti-SLAPP cases involving a public figure where alternative

20
accurately described the difficult statutory standard for
obtaining discovery to oppose an anti-SLAPP motion, the
court’s sole reliance on the statute ignored that Herbert v.
Lando did not endorse a purely discretionary standard for
a plaintiff seeking discovery to satisfy his actual malice
burden, and instead, its holding disdains the erection of
impenetrable barriers to such discovery. In any event,
actual malice involves a state of mind. As construed by the
Court of Appeals, the D.C. statute apparently embodies a
duty of clairvoyance by imposing on the plaintiff a burden
to show what that “state of mind” is, without being allowed
discovery into that state of mind.
Despite the fact that the Court of Appeals concluded
that “the key issue in this case is whether appellants can
prove that CIR 112 was published with actual malice,” 34a,
given the Court of Appeals’ analytical test, Petitioners’
failure was preordained. The court gave no consideration
to the burden the “actual malice” standard imposed on a
limited purpose public figure defamation plaintiff. That
analytical black hole conflicts with this Court’s longestablished standards.
This strain between the anti-SLA PP statutes’
constraints on discovery and the actual malice standard
derives, of course, from First Amendment jurisprudence.
That is, but for the First Amendment’s imposition of the
higher standard of proof, such discovery limits would
pose a far lower bar to prosecuting the claim. The other
constitutional provision implicated is due process. Courts
have expressed due process concerns regarding the
anti-SLAPP statute’s limitations on discovery when the
plaintiff is required to prove actual malice.
sources for proof of malice are unavailable would such discovery
be justified.

21
Accordingly, lower courts have acknowledged the
inherent tension between protection of legitimate speech
and a plaintiff’s right to seek redress for defamatory
speech. That tension is particularly taut when the plaintiff
is a public figure or limited purpose public figure required
to prove actual malice. In Georgia, the state legislature
took action specifically to reduce that strain, replacing a
“discretionary discovery” provision in its anti-SLAPP act,
O.C.G.A. § 9-11-11.1(d), by giving public figure defamation
plaintiffs the right to discovery of actual malice, O.C.G.A
§9-11-11.1(b)(2). Cf. Rosser v. Clyatt, 348 Ga. App. 40, 43
(2018) (“[the statute] provides for ‘discovery on the sole
issue of actual malice,’ should there be a claim that the
plaintiff is a public figure”).
Even California courts applying the more permissive
“good cause” standard for discovery acknowledge these
due process implications. Thus, in The Garment Workers
Center v. Superior Court, 117 Cal. App. 4th 1156 (2004),
the California Court of Appeal recognized that “[s]
urely the fact [that] evidence necessary to establish the
plaintiff’s prima facie case is in the hands of the defendant
or a third party goes a long way toward showing good
cause for discovery.” 117 Cal. App. 4th at 1162. The
Garment Workers court cited with approval the due
process concern articulated in Lafayette Morehouse, Inc.
v. Chronicle Publishing Co., 37 Cal. App. 4th 855, 867-68
(1995): “We acknowledge, however, that the discovery stay
. . . of section 425.16 literally applied in all cases might
well adversely implicate a plaintiff’s due process right,
particularly in a libel suit against a media defendant.” 20
20. Despite the fact that both courts identified the legal
tension in the statute, the Garment Workers court reversed the
grant of discovery because the trial court did not first foreclose
other legal infirmities justifying dismissal, including even failure

22
Even before anti-SLAPP statutes became prevalent,
courts sought to balance due process’s competing
objectives of protection of persons engaged in advocacy
from frivolous lawsuits with the need for discovery
directed to the individual’s right to protect his good name:
“Only through discovery of these materials, which directly
relate to The Post journalists’ states of mind . . . will the
plaintiffs have a fair opportunity to satisfy the actual
malice standard. . . .” Tavoulareas v. Piro, 93 F.R.D. 35,
43 (D.D.C. 1981). The New Mexico Supreme Court has
commented on the analytical strains in finding the proper
balance between these competing rights. Marchiondo v.
Brown, 649 P.2d 462, 467 (N.M. 1982) (“It was error for the
trial court to enter summary judgment for defendants on
the question of malice, in light of the fact that Marchiondo
had been denied the opportunity to discover the . . . state
of mind of the person who made the decision. . . .”). The
Pennsylvania Supreme Court has echoed those concerns
in the context of that Commonwealth’s shield law. See
Hatchard v. Westinghouse Broad. Co., 532 A.2d 346,
351 (Pa. 1987) (expansive interpretation of state shield
law would not adequately protect defamation plaintiff’s
“fundamental right of reputation” in view of actual malice
requirement). A Kentucky Supreme Court dissent recently
voiced similar due process concerns in an anonymous
speech defamation case. See Doe v. Coleman, 497 S.W.3d
740, 757 (Ky. 2016) (Cunningham, J., dissenting) (“a
plaintiff cannot be required to establish evidence of
constitutional actual malice without first engaging in
discovery”).
to state a cause of action for libel. 117 Cal. App. 4th at 1162-63.
In Lafayette, the plaintiff had not even sought discovery. 37 Cal.
App. 4th at 867. Lafayette was superseded by statute on other
grounds as stated in Damon v. Ocean Hills Journalism Club, 85
Cal. App. 4th 468, 478 (2000).

23
In the modern era of anti-SLAPP statutes, this
Court should grant certiorari to re-examine the proper
equilibrium between First Amendment rights and
the law of defamation. It is a time-honored struggle
addressing rights of a constitutional dimension: “This
Court has struggled for nearly a decade to define the
proper accommodation between the law of defamation
and the freedoms of speech and press protected by the
First Amendment.” Gertz, 418 U.S. at 325. Not having
visited that struggle in over forty years, and never
having assessed that “proper accommodation” in the
anti-SLAPP context, this Court should grant certiorari
to revisit the proper balance between those competing
mutual objectives. “Where a publisher’s departure from
standards of press responsibility is severe enough to
strip from him the constitutional protection our decision
acknowledges, we think it entirely proper for the State
to act not only for the protection of the individual injured
but to safeguard all those similarly situated against like
abuse.” Butts, 388 U.S. at 161.
POINT II
The Petition Should Be Granted to Provide
Lower Courts Modern Guidance on Answering
an Important Question of Federal Law: How to
Determine the Scope of the “Particular Controversy
Giving Rise to the Defamation” Under Gertz
The writ should be granted because this Court has not
provided recent or clarifying guidance on how to define
“the defamation giving rise to the controversy” standard
established in Gertz and discussed in Time, Inc. v.
Firestone, 424 U.S. 448, 453-54 (1976). Lower courts have
foundered for almost fifty years to implement the standard,

24
resulting in disparate tests employed throughout the
circuits and states. Further, the guidance issued by this
Court could not have contemplated the unique aspects of
defamation actions which have blossomed in the Internet
age. As the D.C. Circuit lamented over forty years ago,
“Unfortunately, the Supreme Court has not yet fleshed
out the skeletal descriptions of public figures and private
persons enunciated in Gertz. The very purpose of the
rule announced in New York Times, however, requires
courts to articulate clear standards that can guide
both the press and the public.” Waldbaum v. Fairchild
Publications, Inc., 627 F.2d 1287, 1292 (D.C. Cir. 1980).
This is a critically important issue, for it is in the context
of that “particular public controversy” that the defamation
plaintiff’s notoriety mandates that he meet the actual
malice burden. Gertz, 418 U.S. at 351, 352. Beyond the
scope of such controversy, the plaintiff is not deemed to
be a “limited purpose public figure.” See id. Because First
Amendment media rights and the defamation plaintiff’s
individual right to her reputation constitute an important
balancing of conflicting interests, this Court should grant
the writ to provide modern guidance in the Internet age
to elucidate the appropriate standard on this compelling
public issue.
Since New York Times and Butts introduced the public
official and public figure defamation plaintiff’s requirement
to prove actual malice, and this Court’s decision in Gertz
defining the standard for evaluating who is a “limited
purpose public figure,” federal and state courts have
“struggled” to apply that definition. See, e.g., Rosanova v.
Playboy Enterprises, Inc., 411 F. Supp. 440, 443 (S.D. Ga.
1976), aff’d, 580 F.2d 859 (5th Cir. 1978) (“Defining public
figures is much like trying to nail a jellyfish to the wall.”);
Warford v. Lexington Herald-Leader Co., 789 S.W.2d 758,

25
766 (Ky. 1990) (reciting differing tests employed by the
Sixth, D.C., and Second Circuits); William P. Robinson III,
et. al., The Tie Goes to the Runner: The Need for Clearer
and More Precise Criteria Regarding the Public Figure
in Defamation Law, 42 U. Haw. L. Rev. 72, 102 (2019) (“A
cursory review of the case law reveals far less consistency
of reasoning and result than one might hope for in the
crucial arena of determining who is a public figure.”).
In the absence of guidance from this Court since Gertz
and Firestone, the Courts of Appeal and state courts have
adopted differing tests, often conflicting and creating an
analytical quagmire, relating to the definition of a limited
purpose public figure. The D.C. Circuit was among the
first, establishing the three-part test in Waldbaum.
Other Circuits have adopted their own tests, differing in
emphasis and application. The Sixth Circuit applies its
own three-part test. Clark v. Am. Broad. Cos., Inc., 684
F.2d 1208, 1218 (6th Cir. 1982); see also Cottrell v. Nat’l
Collegiate Athletic Ass’n, 975 So. 2d 306, 334 (Ala. 2007)
(adopting three-part test announced by the Eleventh
Circuit) (citing Little v. Breland, 93 F.3d 755, 757 (11th Cir.
1996)); State ex rel. Suriano v. Gaughan, 480 S.E.2d 548,
557-58 (W. Va. 1996) (adopting three-part test); Warford,
789 S.W.2d 758, 766 (Ky. 1990) (adopting three-part test).
In contrast, the Fourth Circuit adopted a five-part test in
Fitzgerald v. Penthouse Int’l Ltd., 691 F.2d 666, 668 (4th
Cir. 1982); see also Waicker v. Scranton Times Ltd. P’ship,
688 A.2d 535, 540 (Md. Ct. Spec. App. 1997) (applying
Fitzgerald’s five-part test). The Second Circuit has
adopted a four-part test. Lerman v. Flynt Distributing
Co., Inc., 745 F.2d 123, 136 (2d Cir. 1984). This proliferation
of tests has led to a proliferation in results, compelling one
court to observe that “[w]hile such tests may constitute
useful analytic frameworks, they sometimes take on a

26
life of their own and become unmoored from the original
intent of the Supreme Court cases that they attempt to
represent.” Anaya v. CBS Broad., Inc., 626 F. Supp. 2d
1158, 1204 (D.N.M. 2009).
The courts’ struggle to define a limited purpose public
figure is especially acute in terms of establishing the
“scope” of the controversy. See, e.g., Harris v. Tomczak,
94 F.R.D. 687, 704 (E.D. Cal. 1982) (explaining that the
Waldbaum test “leaves at large the scope of the controversy
and . . . leads to unpredictable and [unacceptable] ad hoc
results”); Carl Willner, Defining A Public Controversy
in the Constitutional Law of Defamation, 69 Va. L. Rev.
931, 931 (1983) (“The Court’s failure to define ‘public
controversy’ has . . . forced the lower courts to fashion
their own understandings of the term. A few have tried,
with limited success, to devise coherent tests; most have
sunk into a morass of ad hoc rulings.”). Ironically, such
“ad hoc” results were the very problems the Gertz court
sought to avoid since these “would lead to unpredictable
results and uncertain expectations.” 418 U.S. at 343; see
also Waldbaum, 627 F.2d at 1292.
Such “ad hoc” decision-making directly signals the
need for guidance from this Court. These imprecise
definitions of “the public controversy giving rise to the
defamation” lack a principled means of application. The
Waldbaum definition, for example—a “real dispute,
the outcome of which affects the general public or some
segment of it in an appreciable way”—raises but fails
to answer so many questions as to be meaningless. 627
F.2d at 1296. What is a “real dispute” that has some
“outcome”? What types of “affects” are “appreciable”
and what constitutes a “segment” of the public? All those
ill-defined terms comprise questions of fact, yet they

27
are often answered before discovery has even begun.
It is no surprise that, given these standards, courts
simply struggle to apply a working definition of public
controversy: “this [Waldbaum] definition is still inherently
vague.” Araya v. Deep Dive Media, LLC, 966 F. Supp. 2d
582, 591 (W.D.N.C. 2013). See also Rodney Smolla, Law of
Defamation § 2:21 (2020) (noting the confusion exhibited
by lower courts on how to define the “public controversy”).
The definitions used by the various Circuit and state
courts differ, but all too frequently, in practice, result
in finding a public controversy that is meaninglessly
overbroad. As the Second Circuit concluded, a “public
controversy” exists if “various groups . . . have vastly
divergent views. . . .” Lerman, 745 F.2d at 138. On what
topic today are there not divergent views clashing on
Twitter or Facebook? The logical result of the Second
Circuit’s expansive view of “public controversy” is that
if the media shows up at any peaceable assembly with
a camera or smart phone, any person whose image is
captured may become a limited purpose public figure
required to prove “actual malice.” This cannot be what this
Court intended in New York Times, Firestone, or Gertz.
This Court should embrace this opportunity to define a
meaningful and useful standard.
The confusion surrounding the standards for
determining the “public controversy giving rise to the
defamation” is particularly pernicious in the context of
an anti-SLAPP motion. As in this case, the defamation
plaintiff captured within the expansive umbrella of “a
real dispute” must prove actual malice but is precluded
from obtaining evidence of actual malice because of the
limitations on discovery in these statutes.

28
Another problem with the broad reach of the “public
controversy” definition, adopted by the D.C. Circuit
is that it obscures questions about what constitutes
a sufficient “segment” of the population and a “real
dispute.” For example, in the case at bar, the courts below
ignored Petitioners’ argument that discovery was also
warranted to discern the purpose of the Respondents’
engagement and why they were hired in the first place.
Yet the Respondents did not dispute the fact that they
were hired first by Republican opponents of Trump, and
then Democratic opponents of Trump during the 2016
election cycle, suggesting that the controversy giving
rise to CIR 112 was centered in the 2016 presidential
election, and specifically on the controversy of whether
the Trump campaign and Russia colluded to influence
the election result. 21 Thus, the anti-SLAPP limitation on
discovery precluded the Petitioners from even exploring
21. Petitioners’ request for discovery regarding why
Respondents were retained was fully warranted and supported by
Respondents’ own statements, suggesting that limited discovery
into the issue would identify information critical to the resolution
of the definition of the controversy. The public was told this by the
person who engaged Respondents to create CIR 112 and the other
memos that became the “Dossier”: “It was late August 2015 and
the 2016 presidential campaign could not have been younger, nor
the candidacy of Donald Trump more farfetched. . . . As absurd
as Trump seemed, Simpson sensed a rich research and business
opportunity. ‘Trump’ was the subject heading in the email he sent
that Sunday morning to a longtime Republican politico. ‘Couple
of interesting threads that might be worth a look if you know
anyone who might be interested in funding.’ ‘Yes,’ came the reply.
‘Let’s discuss. Can I call you this eve?’” Glenn Simpson and Peter
Fritsch, Crime In Progress, Inside the Steele Dossier and the
Fusion GPS Investigation of Donald Trump 14 (Random House
2020).

29
the nature of the “particular controversy giving rise to
the defamation.”
That judicial struggle with the ill-defined “public
controversy” was manifest in the decisions below. The
Court of Appeals acknowledged—forty-six years after
Gertz—that “[w]hile Gertz furnishes the language ‘giving
rise to the defamation’ it does not supply a framework for
how to define the controversy.” 22a.22 Applying Waldbaum,
and its own definition in Moss v. Stockard, 580 A.2d 1011
(D.C. 1990), the Court of Appeals affirmed that Petitioners
were “limited purpose public figures” for virtually any
issue regarding Russian foreign policy, or any controversy
concerning “Russian oligarchs’ involvement with the
Russian government and its activities and relations around
the world. . . .” 58a. The Court of Appeals seemed to
justify this wide-ranging, virtually boundless, definition
of the controversy by noting that “Waldbaum itself
recognizes that multiple relevant controversies may exist
at the same time, and that ‘a narrow controversy may be
a phase of another broader one.’” Id. (citing Waldbaum,
22. If Gertz were to be read as supplying a framework for
defining the pertinent controversy, fidelity to that framework is
absent from the Court of Appeals’ analysis. Ultimately, Gertz
points to the need to define the controversy by looking to the
issue or concern that gave rise to the making of the defamatory
statement, as opposed to looking at the issue that is the subject
of the defamatory statement. The defamatory statements in
Gertz accused the plaintiff of being a communist, but the events
that gave rise to the making of those defamatory statements
involved a dispute about a different subject—the shooting by the
Chicago police of a civilian. See, e.g., Gertz, 418 U.S. at 325-26,
352. The Supreme Court treated the controversy in Gertz as a
dispute regarding the police shooting, not about the essence of the
defamatory statement (communists in general or whether Gertz
was a communist). See id.

30
627 F.2d at 1297 n.27). The Court of Appeals thus landed
on a definition of “the particular controversy giving rise
to the defamation” that was not “particular,” not even
a “controversy,” and certainly did not give rise to the
defamation that emanated from Respondents’ 2016 United
States presidential election related engagement.
Lacking guidance from this Court, the Court of
Appeals “agreed” with the trial court, reasoning that
the “U.S. public today continues to have a strong interest
in Russia’s relations with the United States and in the
political and commercial relationships between Russian
oligarchs and the Russian government.” 58a. That finding
illustrates how far afield the definition can stray. The
scope of the controversy is determined by the “particular
controversy giving rise to the defamation,” not the court’s
unsupported view of what the U.S. public may or may not
have an interest in. By so finding, the Court of Appeals
modified this Court’s focus of analysis in Gertz into its
own view—unsupported by any evidence of record—into
what the U.S. public finds interesting. In so doing, it in
effect embraced the public interest methodology briefly
adopted by this Court in Rosenbloom v. Metromedia,
Inc., 403 U.S. 29 (1971), and then rejected in Gertz. See
also Wolston v. Reader’s Digest Ass’n, Inc., 443 U.S. 157
(1979); Firestone, 424 U.S. at 453-54 (“cause celebre”
divorce proceeding involving adult adventures sufficient
to “make Dr. Freud’s hair curl” did not render divorcee
a “public figure”).
This Court has repeatedly rejected the principle that
merely being newsworthy is sufficient to render one a
public figure. In Wolston, the Court rejected the concept
that simply because the press found events newsworthy
and that “these events attracted media attention,” such
factors rendered the individual involved a “public figure:

31
A private individual is not automatically
transformed into a public figure just by
becoming involved in or associated with a
matter that attracts public attention. To accept
such reasoning would in effect re-establish the
doctrine advanced by the plurality opinion in
Rosenbloom v. Metromedia, Inc., 403 U.S. 29,
44 (1971), which concluded that the New York
Times standard should extend to defamatory
falsehoods relating to private persons if the
statements involved matters of public concern
or general concern. We repudiated this
proposition in Gertz and in Firestone, however,
and we reject it again today. A libel defendant
must show more than mere newsworthiness
to justify the demanding burden of New York
Times.
Wolston, 443 U.S. at 167-68. 23 The methodology invoked
by the Court of Appeals is (i) inconsistent with this
Court’s limited teaching in Gertz, (ii) illustrates how
wildly overbroad well-intentioned courts may wander in
23. In Wolston, this Court reversed the United States Court
of Appeals for the District of Columbia’s affirmance of the District
Court’s finding that the plaintiff was a limited purpose public figure
for his failure to appear in response to a grand jury subpoena. Justice
Rehnquist rejected the finding that plaintiff had “voluntarily thrust”
or “injected” himself into a public controversy: “It would be more
accurate to say that petitioner was dragged unwillingly into the
controversy.” Id. at 166. Like the current case, Wolston also involved
hyper-sensationalized “interests” in Russian (albeit in the Soviet
era) activities in the United States. In that case, the two D.C. courts
involved deemed Petitioner a “public figure” under Gertz because he
failed to appear for a grand jury investigation after his aunt and uncle
pled guilty to espionage charges. Petitioner had already submitted
to multiple interviews by U.S. authorities. See id. at 161.

32
defining the “controversy giving rise to the defamation,”
and (iii) calls out for more rigorous analytical oversight
from this Court.
The record is uncontroverted that Respondents
were retained by Fusion GPS and Glenn Simpson to
conduct opposition political research about Donald Trump
specifically for the 2016 election. See 3a, 37a. Indeed,
the engagement was originally on behalf of Republican
clients during the primary season, and once Trump
secured the Republican nomination, on behalf of the
Hillary Clinton campaign. 3a. The entire engagement
was for purposes of the 2016 presidential election. Id.
It was that 2016 engagement, ultimately focused on an
investigation of purported illicit ties between Russia and
the Trump campaign that “gave rise to the defamation.”
Yet the Court of Appeals relied on a fifteen-year-old
federal district court holding from 2005, involving entirely
different issues, in defining the “public controversy.”
Both the trial court and Court of Appeals cited OAO Alfa
Bank v. Center for Public Integrity, 387 F. Supp. 2d 20
(D.D.C. 2005), with approval. The events giving rise to
the defamatory statements made in 2000 that were the
subject of the OAO lawsuit could not possibly have been
the same events giving rise to defamatory statements
made in 2016—especially because the issue that gave
rise to the making of those statements in 2016 was
Donald Trump’s presidential campaign in general and his
purported ties to Russia in particular.24 The other case
24. The Wolston court confronted a similar issue insofar as
both lower courts there found that petitioner had become a public
figure in 1958 at the time of his contempt citation. Petitioner argued
that the passage of time had restored him to the status of a private
person for purposes of First Amendment jurisprudence. Because
this Court concluded Wolston was not a public figure in 1958, Justice

33
the Court of Appeals apparently relied on, Deripaska v.
Associated Press, 282 F. Supp. 3d 133 (D.D.C. 2017), did
not even involve Petitioners. Apparently, the Court of
Appeals viewed the label “Russian oligarch” a sufficient
epithet to deem all such “oligarchs” “newsworthy” public
figures, whenever accused of misconduct purportedly
related to their status as oligarchs and how they portrayed
themselves in the media. 25 Yet, even the quote from
Waldbaum that both courts below relied on regarding
broad public controversies acknowledged that one involved
in the sub-controversy would “remain a private person for
the [broader] overall controversy.” Waldbaum, 627 F.2d
at 1297 n.27.
This Court should grant the writ of certiorari to
clarify the appropriate standard for defining the proper
scope of the “particular controversy giving rise to the
defamation” for purposes of identifying “limited purpose
public figures” and their rights under the established
precedent of Gertz. The writ should also issue in order
for this Court to provide appropriate guidance on the
constitutional balance between the mutually competing
objectives of the First Amendment and a limited purpose
public figure’s right to protect his reputation as confirmed
in Herbert v. Lando.
Rehnquist held “we need not and do not decide whether or when an
individual who was once a public figure may lose that status by the
passage of time.” 443 U.S. at 166 n.7.

25. The court in Deripaska noted that the plaintiff did not
dispute any of the material facts as it related to his biography and
role in “advancing Russian interests internationally.” In further
contrast to the Petitioners, the court noted that Deripaska “boasted”
to reporters about his close association with the Russian state. 282
F. Supp. 3d at 142-43.

34
CONCLUSION
For all of the foregoing reasons, the writ of certiorari
should issue.
Respectfully submitted,
Kim Hoyt Sperduto
Marian K. Riedy
Joshua S. K auke
Sperduto Thompson
& Gassler PLC
1747 Pennsylvania Avenue,
NW, Suite 1250
Washington, DC 20006
(202) 408-8900

A lan S. Lewis
Counsel of Record
John J. Walsh
Carter Ledyard
& Milburn LLP
Two Wall Street
New York, NY 10005
(212) 732-3200
lewis@clm.com
Rodney A. Smolla, Esq.
4601 Concord Pike
Wilmington, DE 19803
(302) 477-2278

Counsel for Petitioners
November 16, 2020

APPENDIX

1a
Appendix OF
A THE DISTRICT
APPENDIX A — OPINION
OF COLUMBIA COURT OF APPEALS, DATED
JUNE 18, 2020
DISTRICT OF COLUMBIA COURT OF APPEALS
No. 18-CV-919
MIKHAIL FRIDMAN, PETR AVEN,
AND GERMAN KHAN,
Appellants,
v.
ORBIS BUSINESS INTELLIGENCE LIMITED
AND CHRISTOPHER STEELE,
Appellees.
November 21, 2019, Argued
June 18, 2020, Decided
On Appeal from the Superior Court of the
District of Columbia Civil Division. (CAB-2667-18).
(Hon. Anthony C. Epstein, Trial Judge).
Before BLACKBURNE-RIGSBY, Chief Judge, and
FISHER and BECKWITH, Associate Judges.1.
1. Associate Judge McLeese was a member of the panel at the
time of oral argument. He later recused himself and was replaced
by Chief Judge Blackburne-Rigsby.

2a
Appendix A
JUDGMENT
This case came to be heard on the transcript of
record, the briefs filed, and was argued by counsel. On
consideration whereof, and as set forth in the opinion filed
this date, it is now hereby
ORDERED and ADJUDGED that the judgment of
the Superior court which granted appellees’ special motion
to dismiss is affirmed.
For the Court:
/s/
Julio A. Castillo
Clerk of the Court
Dated: June 18, 2020.
Opinion by Associate Judge Fisher.

3a
Appendix A
Fisher, Associate Judge: Appellants challenge an
order of the Superior Court which granted appellees’
special motion to dismiss, brought under the District of
Columbia Anti-SLAPP Act. D.C. Code §§ 16-5501-5505
(2012 Repl. & 2019 Supp.). Appellants present three
primary arguments: (1) the Anti-SLAPP Act does not
apply to the facts of this case; (2) assuming that the AntiSLAPP Act does apply, appellants have demonstrated that
their claim is likely to succeed on the merits; and (3), in
any event, the court erred by granting the special motion
to dismiss without allowing appellants to conduct targeted
discovery. Finding appellants’ arguments unpersuasive,
we affirm the trial court’s judgment dismissing the case.
I.

Factual and Procedural Background

According to appellants’ complaint, in advance of
the 2016 presidential election, Washington, D.C.-based
Fusion GPS hired appellees Christopher Steele and his
company Orbis Business Intelligence Limited (“Orbis”)
to conduct opposition research about then-candidate
Donald J. Trump. While appellees were initially hired
by Mr. Trump’s Republican opponents, once it became
clear that he would be that party’s nominee, appellees
began working for the Democratic National Committee
and Hillary Clinton’s campaign. Beginning that summer,
appellees investigated what if any connections Mr. Trump
and his campaign might have to Russia and Russian
President Vladimir Putin, and compiled the results of
their investigation into Company Intelligence Reports
(“CIRs”). The complaint states that by the end of October
2016 appellees had created seventeen CIRs, which
collectively became known as the Steele Dossier.

4a
Appendix A
Appellants Mikhail Fridman, Petr Aven, and
German Khan are “ultimate beneficial owners” of Alfa
Group (“Alfa”), a “Russian business conglomerate.”
They claim that one of the reports in the Steele Dossier,
CIR 112, defamed them. CIR 112 is a two-page report
entitled “RUSSIA/US PRESIDENTIAL ELECTION:
KREMLIN-ALPHA GROUP CO-OPERATION.” 2 The
report mentions each appellant by name and refers to
an alleged relationship among appellants, their company
Alfa Group, and President Putin. The report begins with
a three-bullet summary which states:
• Top level Russian official confirms current closeness
of Alpha Group-PUTIN relationship. Significant
favours continue to be done in both directions and
FRIDMAN and AVEN still giving informal advice
to PUTIN, especially on the US
• Key intermediary in PUTIN-Alpha relationship
identified as Oleg GOVORUN, currently Head of
a Presidential Administration department but
throughout the 1990s, the Alpha executive who
delivered illicit cash directly to PUTIN
• PUTIN personally unbothered about Alpha’s
current lack of investment in Russia but under
pressure from colleagues over this and able to
exploit it as lever over Alpha interlocutors
2. CIR 112 consistently refers to appellants’ company as
Alpha Group, but appellants represent that the proper spelling
is Alfa Group.

5a
Appendix A
Following the summary, the report contains three
numbered paragraphs marked “[d]etail.” In relevant part,
this section states that, “[s]peaking to a trusted compatriot
in mid-September 2016, a top level Russian government
official” discussed the relationship between Putin and
“the Alpha Group of businesses led by oligarchs Mikhail
FRIDMAN, Petr AVEN and German KHAN.” These
“leading figures in Alpha” are on “very good terms with
PUTIN,” and “[s]ignificant favours continue[] to be done
in both directions, primarily political ones for PUTIN and
business/legal ones for Alpha.” According to the report,
in the 1990s Fridman and Aven relied upon Govorun, who
at the time was “Head of Government Relations at Alpha
Group,” to act as “the ‘driver’ and ‘bag carrier’ used by
FRIDMAN and AVEN to deliver large amounts of illicit
cash to the Russian president, at the time deputy Mayor
of St. Petersburg.” The report concludes by stating that
“Alpha held ‘kompromat’ on PUTIN and his corrupt
business activities from the 1990s,” but at the same time,
“the Russian president was able to use pressure . . . from
senior Kremlin colleagues as a lever on FRIDMAN and
AVEN to make them do his political bidding.”
According to appellants’ complaint, Steele personally
briefed members of the media about the dossier. After
these alleged briefings, news articles began circulating
which described some of the contents of the dossier. A
writer for Mother Jones magazine interviewed Steele
and wrote an article entitled “A Veteran Spy Has Given
the FBI Information Alleging a Russian Operation to
Cultivate Donald Trump,” which was published on October
31, 2016. The author stated that he had “reviewed” the
early reports in the dossier, from which the article quoted.

6a
Appendix A
Appellants also allege that, in addition to contacting
the media, Steele met with various politicians to discuss
the dossier. On separate occasions in September 2016,
appellants claim, Steele briefed an official from the State
Department and another from the Department of Justice.
He also met with an individual affiliated with Senator John
McCain and, in November 2016, delivered a copy of the
dossier “for redelivery and further publication to Senator
McCain in D.C.”
On January 10, 2017, after Mr. Trump won the
presidential election, BuzzFeed, Inc. (“BuzzFeed”),
published the Steele Dossier in its entirety on the internet.
Along with the dossier, BuzzFeed published an article
entitled “These Reports Allege Trump Has Deep Ties
to Russia.”
Appellants initiated this lawsuit in the Superior
Court on April 16, 2018, alleging that CIR 112 included
“facially defamatory statements.” The lawsuit claimed
that appellees “did not know the unverified, anonymous,
inherently harmful accusations in CIR 112 about
[appellants] to be true” when they “intentionally”
published that information to the individuals and entities
discussed above. In response, appellees filed a special
motion to dismiss pursuant to § 16-5502 of the District of
Columbia Anti-SLAPP Act and a motion to dismiss under
Super. Ct. Civ. R. 12(b)(6).
The Honorable Anthony C. Epstein granted appellees’
special motion to dismiss and denied the Rule 12(b)(6)
motion as moot. Judge Epstein determined that appellees

7a
Appendix A
had made a prima facie showing that the Anti-SLAPP Act
applied to the conduct at issue because it involved a right
of advocacy on an issue of public interest. Regarding the
right of advocacy, Judge Epstein held that, “[e]ven if Mr.
Steele did not meet with the media in a public place or
forum, he engaged in expression involving communicating
information to members of the U.S. public through
the media.” Indeed, the court explained, “Plaintiffs
challenge Mr. Steele’s provision of his dossier to the media
precisely because he expected and intended the media to
communicate the information to the public in the United
States and around the world.”
The court commented that the fact that the dossier
contained so-called “raw intelligence” did not make the
Act inapplicable because “the public is interested in
facts as well as opinions,” and “[t]he First Amendment
protects not only statements of pure opinion but also
statements of fact and of opinions that imply or rely on
provably false facts, unless the plaintiff proves that the
statements are false and that the defendant’s fault in
publishing the statements met the requisite standard.”
On the question of whether the expressive conduct
concerned an issue of public interest, Judge Epstein
found that CIR 112 addressed not just the possibility of
Russian interference in the 2016 presidential election but
also “relations between the United States and Russia
more generally.” He determined that the “involvement
of Russian international businessmen in Russian foreign
policy, specifically including Russian foreign policy toward
the United States, involves an issue of public interest in
the United States, regardless of whether it relates to a
particular election.”

8a
Appendix A
Next, the judge concluded that appellants had not
offered evidence from which a reasonable jury could
return a verdict in appellants’ favor. In reaching that
determination, Judge Epstein found that appellants were
limited-purpose public figures who had failed to meet
the constitutionally required standard of showing that
appellees acted with actual malice. Finally, Judge Epstein
denied appellants’ request for targeted discovery, holding
that appellants had failed to show that discovery would be
“likely to uncover clear and convincing evidence that, for
example, Mr. Steele fabricated any information provided
in CIR 112 or had solid intelligence that his source(s)
fabricated it.” This appeal followed.
II. Discussion
“A ‘SLA PP ’ (strateg ic lawsuit against public
participation) is an action ‘filed by one side of a political
or public policy debate aimed to punish or prevent the
expression of opposing points of view.’” Competitive Enter.
Inst. v. Mann, 150 A.3d 1213, 1226 (D.C. 2016) (quoting
Council of the District of Columbia, Report of Comm. on
Public Safety and the Judiciary on Bill 18-893, at 1 (Nov.
18, 2010) (“November Report”)). In enacting the AntiSLAPP Act, the Council of the District of Columbia took
into consideration research showing that SLAPPs:
[H]ave been increasingly utilized over the past
two decades as a means to muzzle speech or
efforts to petition the government on issues of
public interest. Such cases are often without
merit, but achieve their filer’s intention of

9a
Appendix A
punishing or preventing opposing points
of view, resulting in a chilling effect on the
exercise of constitutionally protected rights.
November Report at 1. To mitigate “the amount of
money, time, and legal resources” that defendants named
in such lawsuits must expend, the Anti-SLAPP Act
created substantive rights which accelerate the often
lengthy processes of civil litigation. Id. These rights
include a special motion to dismiss which provides for
the expeditious dismissal of a complaint, see D.C. Code
§ 16-5502(a), and the ability to stay discovery until that
motion has been ruled upon, id. § 16-5502(c).
The party filing a special motion to dismiss must first
show that the Act applies. Id. § 16-5502(b); see Mann, 150
A.3d at 1232. Once applicability has been established, the
burden then shifts to the non-moving party to show “that
the claim is likely to succeed on the merits.” D.C. Code
§ 16-5502(b). If the non-moving party fails to meet that
standard, then the motion must be granted and the case
will be dismissed with prejudice. Id. § 16-5502 (b), (d).
A.

Prima Facie Showing That the Anti-SLAPP
Act Applies

We first address whether appellees have made a
prima facie showing that the claims at issue fall under
the protection of the Anti-SLAPP Act — do the claims
“aris[e] from an act in furtherance of the right of advocacy
on issues of public interest”? Id. § 16-5502(a). Appellants
do not challenge that the “content of CIR 112 includes

10a
Appendix A
‘an issue of public interest.’” However, the parties do
dispute whether the publication of CIR 112 met the “act
in furtherance of the right of advocacy” requirement of
the Act. Id. Although our opinion in Doe No. 1 v. Burke,
91 A.3d 1031, 1041-44 (D.C. 2014), addressed the definition
of an “issue of public interest,” none of our published
opinions to date has construed “in furtherance of the
right of advocacy.”
The Anti-SLAPP Act defines an “act in furtherance
of the right of advocacy on issues of public interest” as:
(A) Any written or oral statement made:
(i) In connection with an issue under
consideration or review by a legislative,
executive, or judicial body, or any
other official proceeding authorized
by law; or
(ii) In a place open to the public or a
public forum in connection with an
issue of public interest; or
(B) Any other expression or expressive conduct
that involves petitioning the government or
communicating views to members of the public
in connection with an issue of public interest.
D.C. Code § 16-5501(1). The parties agree that § 16-5501(1)
(A)(i) does not apply to the facts at hand. This leaves us to
determine whether appellees’ actions should be considered

11a
Appendix A
a written or oral statement made “in a place open to
the public or a public forum in connection with an issue
of public interest,” id. § 16-5501(1)(A)(ii), or expression
“that involves . . . communicating views to members of the
public in connection with an issue of public interest,” id.
§ 16-5501(1)(B). As discussed in detail below, we conclude
that appellants’ conduct falls within § 16-5501(1)(B). We
therefore do not discuss the meaning or application of
§ 16-5501(1)(A)(ii).
In order for Subsection B to apply, there must
be evidence that appellees “communicat[ed] views to
members of the public.” Id. at § 16-5501(1)(B). Although
the complaint alleges that Steele met with members of
the media in private, it is reasonable to infer that Steele
expected and intended that the media in turn would
communicate this information to the public. However,
appellants challenge the application of Subsection B by
asserting that CIR 112 “expresse[d] no views.” According
to appellants, the phrase “communicating views” applies
only to beliefs or opinions and cannot be “stretched
to encompass the compiling and conveyance of ‘raw
intelligence.’” They argue that “views mean views — not
facts,” and that any other reading of the word “views”
is contrary to its “well understood meaning.” Relying
upon language from the trial court’s order, appellees,
on the other hand, contend that the statutory language
encompasses not “only pure opinion speech” but also
factual statements and “raw intelligence.”
To determine whether a particular statement meets
this definition of advocacy, we think it helpful to look

12a
Appendix A
to defamation law for guidance. Our law recognizes
that speech is capable of conveying different meanings
depending upon the context in which it occurs. See
Klayman v. Segal, 783 A.2d 607, 614 (D.C. 2001) (requiring
the court to look at the publication “as a whole, in the
sense it would be understood by the readers to whom it
was addressed” to determine whether speech is capable
of defamatory meaning) (quoting Howard Univ. v. Best,
484 A.2d 958, 989 (D.C. 1984)). Indeed, it is quite possible
that speech may have a defamatory meaning in some
circumstances, but not in others. See Wallace v. Skadden,
Arps, Slate, Meagher & Flom, 715 A.2d 873, 878 (D.C.
1998) (holding that statements that “an attorney is often
out of the office during normal working hours, . . . could
reasonably be construed, in context, as a reflection on
her professional performance”); see also Southern Air
Transp., Inc. v. American Broadcasting Companies,
Inc., 877 F.2d 1010, 1015, 278 U.S. App. D.C. 222 (D.C. Cir.
1989) (considering statements that a company “engaged
in dealings with the government of South Africa” capable
of defamatory meaning because at the time, there was
“intense antipathy felt by a great number of Americans
towards South Africa”). Thus, courts must look to the
context of the challenged speech to determine whether
it was “capable or susceptible of a defamatory meaning.”
Klayman, 783 A.2d at 614.
Similarly, whether expressive conduct communicates
a view depends not solely on the words spoken, but also
upon the circumstances surrounding the speech, including
when, where, why, and how the words were uttered, as well
as the characteristics of the speaker and the audience. It

13a
Appendix A
is certainly possible that statements of fact not overtly
couched as an opinion can communicate a view when
considered in context and as a whole.
According to appellants’ complaint, Steele and his
company were hired by Mr. Trump’s political opponents
to conduct “opposition research” into possible dealings Mr.
Trump and his campaign had with Russia. The complaint
itself alleges that the Steele Dossier in general, and CIR
112 in particular, were created “to publicly discredit its
target,” an action that was “[c]onsistent with the intended
purpose of ‘oppo research.’” Given the background
detailed in the complaint, CIR 112 communicates the view
that Fridman, Aven, and Khan have had a longstanding
close and influential relationship with President Putin
— a relationship which includes illicit acts. In discussing
appellants’ ability to influence Putin (or to do his bidding)
“on foreign policy, and especially about the U.S.,” CIR
112 further communicates the view that appellants are
powerful figures who can affect relations between Russia
and the United States. By publishing CIR 112 to the
media, appellees communicated this view to members of
the public. Appellees have therefore made a prima facie
showing that the publication of CIR 112 falls within the
protection of the Anti-SLAPP Act.
B. “Likely To Succeed on the Merits”
Since appellees’ conduct qualifies for the protections
of the Anti-SLAPP Act, the burden shifts to appellants
to show “that the[ir] claim [of defamation] is likely to
succeed on the merits.” D.C. Code § 16-5502(b). Our role

14a
Appendix A
is “to test the legal sufficiency of the evidence to support
the claims.” Mann, 150 A.3d at 1240. We must affirm a
ruling granting a special motion to dismiss if the “claimant
could not prevail as a matter of law, that is, after allowing
for the weighing of evidence and permissible inferences
by the jury.” Id. at 1236 (emphasis omitted).
1.

Public Figure Determination
a.

Legal Framework

“To succeed on a claim for defamation, a plaintiff must
prove: ‘(1) that the defendant made a false and defamatory
statement concerning the plaintiff; (2) that the defendant
published the statement without privilege to a third party;
(3) that the defendant’s fault in publishing the statement
met the requisite standard; and (4) either that the
statement was actionable as a matter of law irrespective
of special harm or that its publication caused the plaintiff
special harm.’” Id. at 1240 (quoting Oparaugo v. Watts, 884
A.2d 63, 76 (D.C. 2005)) (footnotes omitted). On appeal, the
parties focus on the third element (the standard of fault). 3
The standard against which we measure the
defendant’s fault in publishing turns upon whether
the plaintiff is a public or a private figure. See Moss v.
3. For purposes of this analysis, we assume without deciding
that the nearly identical affidavits each appellant submitted, which
assert that the statements in CIR 112 regarding illicit activities
and a “quid pro quo” relationship with President Putin were
false, are enough to make the first element of a defamation claim
a question for the jury to decide.

15a
Appendix A
Stockard, 580 A.2d 1011, 1022 (D.C. 1990). Given their
“ready access . . . to mass media of communication, both
to influence policy and to counter criticism of their views
and activities,” Curtis Publishing Co. v. Butts, 388 U.S.
130, 164, 87 S. Ct. 1975, 18 L. Ed. 2d 1094 (1967) (Warren,
C.J., concurring), public figures are required “to prove
greater fault by a greater degree of factual certainty than
private plaintiffs,” Moss, 580 A.2d at 1029.
The term “public figure” can be broken down into two
categories: general purpose public figures and limitedpurpose public figures. See Gertz v. Welch, Inc., 418 U.S.
323, 345, 94 S. Ct. 2997, 41 L. Ed. 2d 789 (1974). Because
of their “positions of such persuasive power and influence,”
general purpose public figures “are deemed public figures
for all purposes.” Id. at 345. “[L]imited-purpose public
figures, who assume roles ‘in the forefront of particular
public controversies in order to influence the resolution of
the issues involved,’” are only considered public figures in
relation to the particular controversy (or controversies)
in which they have involved themselves. Moss, 580 A.2d
at 1030 (quoting Gertz, 418 U.S. at 345).
“The task of determining whether a defamation
plaintiff is a limited-purpose public figure is a difficult
one, requiring a highly fact-intensive inquiry.” Doe No. 1,
91 A.3d at 1041. The ultimate determination is a question
of law, however. See Moss, 580 A.2d at 1030-31. To aid in
this process, the D.C. Circuit devised a three-part test
in Waldbaum v. Fairchild Publications, Inc., 627 F.2d
1287, 1296-97, 201 U.S. App. D.C. 301 (D.C. Cir. 1980). We
adopted the Waldbaum test in Moss. 580 A.2d at 1030-32.

16a
Appendix A
Under this framework, the trial court first must “decide
whether there is a public controversy, and determine
its scope.” Id. at 1030. This inquiry is backward-looking
and requires us to decide “whether the controversy to
which the defamation relates was the subject of public
discussion prior to the defamation.” Id. Next, the court
asks “whether ‘a reasonable person would have expected
persons beyond the immediate participants in the
dispute to feel the impact of its resolution.’” Id. (quoting
Waldbaum, 627 F.2d at 1297).
After the controversy is defined, we look at “the
plaintiff’s role in it.” Moss, 580 A.2d at 1031. To be a
limited-purpose public figure, “[t]he plaintiff must have
achieved a special prominence in the debate, and either
‘must have been purposely trying to influence the outcome
or could realistically have been expected, because of
his position in the controversy, to have an impact on its
resolution.’” Id. (quoting Waldbaum, 627 F.2d at 1297).
“Occasionally, someone is caught up in the controversy
involuntarily and, against his will, assumes a prominent
position in its outcome.” Waldbaum, 627 F.2d at 1298; see
Moss, 580 A.2d at 1033. In those instances, “[u]nless he
rejects any role in the debate, he too has ‘invited comment’
relating to the issue at hand.” Waldbaum, 627 F.2d at 1298.
Finally, if both of the previous elements are satisfied
— “there is a preexisting public controversy which the
plaintiff undertakes to influence” — we consider “whether
the alleged defamation was germane to the plaintiff’s
participation in the controversy.” Moss, 580 A.2d at 1031.

17a
Appendix A
b.

When Do We Conduct the Public
Figure Analysis?

As a preliminary matter, appellants assert that the
Superior Court erred in conducting a public figure analysis
at the special motion to dismiss stage of this litigation.
They argue that unless a plaintiff concedes his status as
a public figure, he need only present a prima facie case
of negligence in publishing to defeat a special motion to
dismiss, rather than meet the heightened “actual malice”
standard that applies to both general and limited-purpose
public figures. Appellants complain that “a plaintiff cannot
be required to prove something that he is not required to
plead,” and urge us to recognize that “whether a plaintiff
is a public figure is an affirmative defense.” Therefore,
according to appellants, a plaintiff’s status as a public
figure should have no bearing upon the Anti-SLAPP Act’s
requirement that he “demonstrate[] that the claim is likely
to succeed on the merits.” D.C. Code § 16-5502(b).
To support their argument, appellants point to two
unpublished district court opinions: Fridman v. Bean
LLC, No. 17-2041, 2019 U.S. Dist. LEXIS 7874, 2019 WL
231751 (D.D.C. Jan. 15, 2019), and MiMedx Grp, Inc. v.
DBW Partners, LLC, No. 17-1925, 2018 U.S. Dist. LEXIS
166970, 2018 WL 4681005 (D.D.C. Sept. 28, 2018). Both
cases were decided after the Superior Court issued its
opinion in this matter and therefore were not addressed
below. In Fridman, which is a companion case to the
current litigation and involves a similar challenge to CIR
112, the district court denied the defendants’ Rule 12(b)
(6) motion, concluding that it was premature to resolve

18a
Appendix A
the question of whether plaintiffs were public figures.
2019 U.S. Dist. LEXIS 7874, 2019 WL 231751, at *4. The
court reasoned that the plaintiffs were not required to
plead sufficient facts to show that the defendants published
CIR 112 with actual malice because the heightened fault
standard would only be raised “as an affirmative defense
to defeat plaintiffs’ defamation claim.” Id. The court
further stated that the plaintiffs had no obligation to
overcome that affirmative defense because “resolution of
an affirmative defense is proper on a motion to dismiss
only if the facts required to establish the defense are
apparent on the face of the complaint (or if the plaintiff
concedes public figure status or the facts that establish
it).” Id.
Likewise, the district court denied the defendants’
Rule 12(b)(6) motion in MiMedx because it determined that
the defamation plaintiff had no “obligation to anticipate
in its complaint the need to plead facts to defend against
defendants’ assertion that it is a public figure.” 2018 U.S.
Dist. LEXIS 166970, 2018 WL 4681005, at *6. Although
the court opined that the plaintiff “may later be deemed
a public figure or limited-purpose public figure, . . . its
failure to allege actual malice” did not require dismissal
on Rule 12(b)(6) grounds. Id.
We are not bound by these unpublished opinions
from the federal district court. More importantly, we
emphasize, the judges in both Fridman and MiMedx
were not purporting to apply the Anti-SLAPP Act. The
Anti-SLAPP Act was not at issue in MiMedx, and the
trial judge in Fridman declined to apply the Act in federal

19a
Appendix A
court. See Fridman, 2019 U.S. Dist. LEXIS 7874, 2019
WL 231751, at *2.4
The standards for adjudicating a special motion
to dismiss and a Rule 12(b)(6) motion are materially
distinct. In ruling on a Rule 12(b)(6) motion, a court looks
at whether the complaint “contain[s] sufficient factual
matter, accepted as true, to state a claim to relief that is
plausible on its face.” Comer v. Wells Fargo Bank, N.A.,
108 A.3d 364, 371 (D.C. 2015) (quoting Ashcroft v. Iqbal,
556 U.S. 662, 678, 129 S. Ct. 1937, 173 L. Ed. 2d 868 (2009)).
There is no requirement that a plaintiff offer any evidence
to defeat the motion. In re Estate of Curseen, 890 A.2d
191, 193 (D.C. 2006).
However, in opposing a special motion to dismiss,
the plaintiff must shoulder the burden of showing that
his claim is likely to succeed on the merits. In Mann, we
explained that this requirement “mandates the production
or proffer of evidence that supports the claim.” 150 A.3d
at 1233. Because the “standards against which the court
must assess the legal sufficiency of the evidence are
the substantive evidentiary standards that apply to the
underlying claim and related defenses and privileges,”
plaintiffs are required to present more than the mere
4. Citing the D.C. Circuit’s decision in Abbas v. Foreign
Policy Group, LLC, 783 F.3d 1328, 1334-37, 414 U.S. App. D.C. 465
(D.C. Cir. 2015), the judge denied the defendant’s special motion
to dismiss, concluding that “a federal court sitting in diversity
must apply Federal Rules of Civil Procedure 12 and 56 rather
than D.C.’s Anti-SLAPP law.” Fridman, 2019 U.S. Dist. LEXIS
7874, 2019 WL 231751, at *2.

20a
Appendix A
allegations in the complaint. Id. at 1236. The process
in essence accelerates the consideration of available
defenses. Thus, “[t]he precise question the court must
ask [in ruling on a special motion to dismiss] is whether
a jury properly instructed on the law, including any
applicable heightened fault and proof requirements,
could reasonably find for the claimant on the evidence
presented.” Id. (emphasis added). See Doe No. 1, 91 A.3d at
1045 (concluding that a special motion to quash subpoena
should have been granted; appellee, a public figure, had
failed to show a likelihood of success on the merits because
she could not show actual malice). This fundamental
difference in procedure makes the reasoning in Fridman
and MiMedx inapplicable to a special motion to dismiss.
Rather than disposing of a meritless lawsuit “early in
the litigation,” as the Act intends, see Mann, 150 A.3d at
1238, appellants’ reading of the statute would prolong the
litigation process and render the special motion to dismiss
ineffective when it comes to public figures, who would be
required to prove actual malice at trial, but could defeat
the special motion with a lesser showing of fault. Id. at
1238. The trial court properly conducted a public figure
analysis prior to ruling on the special motion to dismiss.
c.

Application to the Facts at Hand

The Superior Court identified a real, public controversy,
which it defined as “Russian oligarchs’ involvement with
the Russian government and its activities and relations
around the world, including the United States.” This
definition of a preexisting public controversy was

21a
Appendix A
supported by the record. Moreover, we agree with the
trial court that the “U.S. public today continues to have a
strong interest in Russia’s relations with the United States
and in the political and commercial relationships between
Russian oligarchs and the Russian government.” Notably,
when faced with a similar issue, our sister courts in the
District of Columbia have concluded that “there can be no
doubt [that] a public controversy exists relating to Russian
oligarchs acting on behalf of the Russian government.”
Deripaska v. Associated Press, 282 F. Supp. 3d 133, 142
(D.D.C. 2017). See also OAO Alfa Bank v. Ctr. for Pub.
Integrity, 387 F. Supp. 2d 20, 43 (D.D.C. 2005) (holding
that “[t]he rise of the oligarchs and the decline of the
Russian economy into what one observer described as
a ‘criminal-syndicalist state’” was a public controversy
because it was the topic of “intense discussion” throughout
the United States and the world). 5
5. In determining that appellants were limited-purpose
public figures, Judge Epstein referred to OAO Alfa Bank v.
Center for Public Integrity, 387 F. Supp. 2d 20 (D.D.C. 2005),
a prior defamation case. That case was brought by appellants
Fridman and Aven and their companies and involved a challenge
to statements from a public interest organization alleging that
the plaintiffs had connections to organized crime in Russia. Id.
at 23. The trial court in OAO Alfa Bank held that appellants
were limited-purpose public figures. Id. at 47. On appeal in the
current case, appellants maintain that Judge Epstein improperly
“import[ed] the OAO limited public figure finding into this case.”
They assert that Judge Epstein’s mention of OAO Alfa Bank
was “an invalid shortcut”—an improper use of issue preclusion.
We disagree. Although Judge Epstein relied upon quotes from
OAO Alfa Bank, we do not read his opinion as impermissibly
applying issue preclusion to determine appellants’ public figure

22a
Appendix A
Appellants argue that the trial court misidentified the
controversy and assert that it should be defined instead
as “Donald J. Trump’s ties to Russia and Vladimir Putin.”
In advancing that conclusion, appellants contend that
the Supreme Court’s decision in Gertz stands for the
proposition that “[c]ourts should not base their decision
on how to define the controversy on the content of the
defamatory statement . . . but rather, on the issue or
dispute that triggered the making of the defamatory
statements.” Following that reasoning, appellants
maintain that because the Steele Dossier was created in
order to investigate “Donald J. Trump’s ties to Russia
and Vladimir Putin,” the controversy “giving rise” to the
allegedly defamatory statements was “the controversy
surrounding Donald Trump’s presidential campaign.” At
its core, appellants’ argument urges us to focus on why
CIR 112 was published.
This argument is unconvincing. While Gertz furnishes
the language “giving rise to the defamation,” it does
not supply a framework for analyzing how to define the
controversy. 418 U.S. at 352. In the nearly fifty years since
status. Rather, the quotations serve as evidence that appellants
have been the subject of international discussion for years, and
correspondingly have “enjoy[ed] access to the channels of effective
communication that enable them to respond to any defamatory
statements and influence the course of public debate.” Id. at 45
(internal quotation marks omitted). Judge Epstein explained why,
based upon the documents submitted by appellees in this case, the
“findings in OAO Alfa Bank are valid today.” The opinion does not,
as appellants suggest, simply adopt the finding of OAO Alfa Bank
without conducting an independent analysis.

23a
Appendix A
Gertz was decided, cases such as Waldbaum and Moss
have done so. Waldbaum itself recognizes that multiple
relevant controversies may exist at the same time, and
that “a narrow controversy may be a phase of another,
broader one.” 627 F.2d at 1297 n.27.
In light of Waldbaum, appellants’ assertion that
the Steele Dossier was created to investigate candidate
Trump’s ties to Russia is not incompatible with the Superior
Court’s definition of the controversy. While gathering
information about Mr. Trump and his connections to
Russia may have been the motivation behind creating the
dossier, CIR 112 focuses on the preexisting controversy
surrounding Russian oligarchs and their influence upon
the Russian government. This discussion might well have
provided important background information related to
the election. Nevertheless, the motivation leading to the
creation of the Steele Dossier does not compel us to define
the controversy differently than the Superior Court did.
Our next step is to analyze appellants’ role in the
controversy. See Waldbaum, 627 F.2d at 1297. “The
plaintiff either must have been purposely trying to
influence the outcome or could realistically have been
expected, because of his position in the controversy, to
have an impact on its resolution.” Id. Amassed in the
record before us are hundreds of pages of news articles
discussing appellants’ status as Russian oligarchs
and their ties to Vladimir Putin. Furthermore, as the
record shows, in the years prior to the publication of
CIR 112, there were thousands of internet search hits
for each appellant, showing appellants’ involvement in

24a
Appendix A
the controversy prior to September 2016. Included in
these search hits are news articles detailing meetings
each appellant has had with President Putin as well as
personal interviews the appellants have willingly given to
the media. These interviews have spanned a wide range
of subjects, from discussions of appellants’ hobbies and
interests to statements regarding their businesses and
connections to the Kremlin.
The involvement appellants and their businesses had
in litigation over a decade before the election shows that
they have been participating in a debate on the world’s
stage for quite some time. See OAO Alfa Bank, 387 F.
Supp. 2d at 23. In the interim appellants have not been shy
about giving interviews and putting forth their own views
about their role with respect to the Russian government.
Even if their celebrity in this matter was a vestige of a
previous era, it is evident that appellants still “remain[]
able to reply to attacks through the press, which is
continuing to cover [them].” Waldbaum, 627 F.2d at 1295
n.18. Based on this record, we have no trouble upholding
Judge Epstein’s conclusion that appellants “have assumed
special prominence in [the] controvers[y].”
Finally, we conclude that the challenged speech
contained in CIR 112 was germane to appellants’
participation in the controversy. See Waldbaum, 627
F.2d at 1298. At its core, CIR 112 discusses appellants’
relationship with President Putin and the influence
appellants have over the Russian government and its
“foreign policy . . . especially about the US.” These
statements are directly related to the public controversy

25a
Appendix A
identified by Judge Epstein. Since all three prongs of the
Waldbaum test are satisfied, we agree with the trial court
that appellants are limited-purpose public figures with
respect to the speech at issue.
2.

Did Appellees Publish with Actual Malice?

As limited-purpose public figures claiming they
were defamed, appellants are held to heightened proof
requirements. Even at the special motion to dismiss stage,
appellants must proffer evidence capable of showing by
the clear and convincing standard that appellees acted
with actual malice in publishing CIR 112. See Mann, 150
A.3d at 1236. This constitutional standard “is a daunting
one” which very few public figures can meet. McFarlane
v. Sheridan Square Press, Inc., 91 F.3d 1501, 1515, 320
U.S. App. D.C. 40 (D.C. Cir. 1996) (quoting McFarlane
v. Esquire Magazine, 74 F.3d 1296, 1308, 316 U.S. App.
D.C. 35 (D.C. Cir. 1996)). To succeed in establishing actual
malice, appellants must show “that the statement was
made with knowledge that it was false or with reckless
disregard of whether it was false or not.” Thompson v.
Armstrong, 134 A.3d 305, 311 (D.C. 2016) (quoting New
York Times v. Sullivan, 376 U.S. 254, 279-80, 84 S. Ct.
710, 11 L. Ed. 2d 686 (1964)). Merely “show[ing] that [the]
defendant should have known better” than to believe the
truth of his publication does not suffice. Jankovic v. Int’l
Crisis Grp., 822 F.3d 576, 589, 422 U.S. App. D.C. 259 (D.C.
Cir. 2016); see also St. Amant v. Thompson, 390 U.S. 727,
731, 88 S. Ct. 1323, 20 L. Ed. 2d 262 (1968). Rather, the
plaintiff must offer evidence showing that “the defendant
in fact entertained serious doubts as to the truth of his

26a
Appendix A
publication,” St. Amant, 390 U.S. at 731, or acted “with
a ‘high degree of awareness of . . . probable falsity,’” id.
(quoting Garrison v. Louisiana, 379 U.S. 64, 74, 85 S. Ct.
209, 13 L. Ed. 2d 125 (1964)).
Appellants have not done so. They argue that the truth
of the challenged speech can be doubted if the information
was learned from an “unverified and anonymous” source
and if bias was shown in its publication. They proffer three
pieces of evidence which they claim adequately support
“an inference” of actual malice.
Appellants first contend that the source of the
statements “contained in CIR 112 was not merely
unknown to readers, but more importantly, unknown to
Steele.” For this proposition, they rely upon language in
CIR 112 which states: “[s]peaking to a trusted compatriot
in mid-September 2016, a top level Russian government
official commented on the history and current state of
relations between President [Putin, appellants, and Alfa
Bank].” Based solely on that statement and the fact that
CIR 112 did not identify a source, appellants assume that
Steele learned the information in the document from an
“unverified and anonymous” source. Building on this
assumption, appellants assert that the “evidence” supports
an inference of actual malice under St. Amant, 390 U.S.
at 731.
Appellants are mistaken. In St. Amant, the Supreme
Court stated that a defamation plaintiff is likely to meet
the actual malice standard when the defendant’s “story
. . . is based wholly on an unverified anonymous telephone

27a
Appendix A
call.” Id. But, although CIR 112 does not name a source,
there is no reason to expect that it would.6 Appellants
have identified nothing in the record to suggest that
Steele learned the information he published through
an anonymous tipster. Nor have appellants identified
anything showing that Steele did not test the veracity
of the intelligence he gained, assuming that it did derive
from a source unknown to him. Instead, appellants simply
assert that appellees have failed to rebut the contention
that the source was unverified and anonymous because
“[t]here is no indication in CIR 112 or elsewhere that
Steele knew the identity of the anonymous Russian official
who spoke to the unidentified ‘trusted compatriot.’”
That argument misplaces the burden, which lies
with the appellants to set forth facts that would allow a
jury to find actual malice. See Mann, 150 A.3d at 1236.
Furthermore, under the reasoning in St. Amant and
subsequent cases, reliance upon a single source, even
an unverified and anonymous one, will amount to actual
6. Intelligence reports, like the Steele Dossier, and even
newspaper articles, are often designed to conceal the identity
of their source or sources. Nothing in St. Amant or subsequent
cases makes a defendant’s decision not to publicly name a source
the equivalent of actual malice. Moreover, without more, actual
malice would not be a reasonable inference even if Steele himself
did not know the identity of the speaker. The Supreme Court has
recognized “that a public figure plaintiff must prove more than
an extreme departure from professional standards and that a
newspaper’s [biased] motive in publishing a story . . . cannot
provide a sufficient basis for finding actual malice.” Harte-Hanks
Communications, Inc. v. Connaughton, 491 U.S. 657, 665, 109 S.
Ct. 2678, 105 L. Ed. 2d 562 (1989).

28a
Appendix A
malice only if the defendant “had obvious reason to
doubt” the statement’s veracity. Jankovic, 822 F.3d at 590
(quotation omitted). Appellants cannot point to anything
establishing that it was reasonable to infer that there were
obvious reasons for Steele to doubt the credibility of his
source. See Mann, 150 A.3d at 1236.7
Appellants’ second proffer fares no better. Appellants
claim that an inference of bias must apply because Steele
was hired to provide opposition research on Donald
Trump. While we have held that “bias providing a
motive to defame . . . may be a relevant consideration” in
evaluating whether the defendant acted with actual malice,
id. at 1259, appellants’ reliance upon this statement is
misplaced. According to the allegations in the complaint,
Steele and his company were hired to conduct opposition
research about candidate Trump and his presidential
campaign. Perhaps it is fair to infer that Steele was
biased against Mr. Trump, whom Steele had been hired by
political opponents to investigate and “publicly discredit.”
However, this motivation would not necessarily extend to
appellants, who were not the “target” of Steele’s research
and investigation.
Finally, citing a news article, appellants claim that
Steele admitted after the dossier was published that up
7. Appellees assert in a footnote that appellants are not
entitled to permissible inferences in their favor. However, in Mann,
we held that, before granting a special motion to dismiss, a trial
court must “allow[] for the weighing of evidence and permissible
inferences by the jury.” 150 A.3d at 1236.

29a
Appendix A
to 30% of it might prove to be inaccurate. 8 This article,
which was published over a year after the dossier was
created, states that although “Steele was adamant that
his reporting was credible,” he “recogni[z]ed that no
piece of intelligence was 100% right.” Relying solely
upon statements allegedly made by Steele’s anonymous
“friends,” the article reports that Steele “assessed that
his work on the Trump dossier was 70-90% accurate.”
Appellant’s reliance on this single statement ignores
the context of the entire twelve-page article, which quotes
an associate as stating that Steele is “sober, cautious,
highly regarded, professional and conservative.” Even
assuming that their assertion about the dossier’s overall
accuracy, which ironically is supported only by anonymous
sources, proved true, a jury properly instructed on the law
could not reasonably infer that this evidence amounted to
proof of actual malice. See Mann, 150 A.3d at 1232 (“[W]e
conclude that in considering a special motion to dismiss,
the court evaluates the likely success of the claim by asking
whether a jury properly instructed on the applicable legal
and constitutional standards could reasonably find that the
claim is supported in light of the evidence that has been
produced or proffered in connection with the motion.”).
As the Superior Court rightfully noted, appellants have
not maintained that Steele “subjectively believed that the
10-30% of the Steele Dossier that would ultimately turn
out to be inaccurate included CIR 112.” Nor do appellants
8. Luke Harding, How Trump walked into Putin’s web,
T he Guardian, (Nov. 15, 2017), https://www.theguardian.com/
news/2017/nov/15/how-trump-walked-into-putins-web-luke https://
perma.cc/7Z7Y-N8UF.

30a
Appendix A
point to any evidence showing that Steele was aware at
the time he published the dossier that he was relying upon
inaccurate information. Indeed, according to the same
article on which appellants rely, Steele told friends that
the dossier “was a thoroughly professional job, based on
sources who had proven themselves in other areas.”
For these reasons, even drawing reasonable inferences
in appellants’ favor, they have failed to proffer evidence
capable of showing by the clear and convincing standard
that appellees acted with actual malice. Mann, 150 A.3d
at 1236.
C.

Denial of Targeted Discovery

Finally, appellants challenge the trial court’s denial of
their request for targeted discovery. The Act provides, as
a substantive protection for defendants, that once a special
motion to dismiss has been filed, all discovery proceedings
“shall be stayed until the motion has been disposed of.”
D.C. Code § 16-5502(c)(1). Nevertheless, “[w]hen it appears
likely that targeted discovery will enable the plaintiff to
defeat the motion and that the discovery will not be unduly
burdensome, the court may order that specified discovery
be conducted.” Id. § 16-5502(c)(2).
As a general rule, “the intent of the lawmaker is
to be found in the language that he [or she] has used.”
Peoples Drug Stores, Inc. v. District of Columbia, 470
A.2d 751, 753 (D.C. 1983) (en banc) (quoting Varela v.
Hi-Lo Powered Stirrups, Inc., 424 A.2d 61, 64 (D.C.
1980) (en banc)). Therefore, our first step in interpreting

31a
Appendix A
§ 16-5502(c) is to “look at the language of the statute
by itself to see if the language is plain and admits of no
more than one meaning.” Davis v. United States, 397
A.2d 951, 956 (D.C. 1979). While Subsection (c)(1) clearly
and unambiguously requires that discovery proceedings
be stayed once a special motion to dismiss is filed, the
language of Subsection (c)(2) requires further analysis.
In order for discovery to be allowed, two things
must “appear[] likely”: (1) “that targeted discovery will
enable the plaintiff to defeat the motion,” and (2) “that
the discovery will not be unduly burdensome.” D.C Code
§ 16-5502(c)(2). The limiting language found in the second
clause is well known to us. The “unduly burdensome”
phrase mimics the requirement set forth in Super. Ct. Civ.
R. 26(g)(1)(C) that a party seeking discovery must attest
that it is “neither unreasonable nor unduly burdensome.”
Both our court and the Superior Court have adjudicated
discovery disputes under the unduly burdensome
standard. We need not analyze this clause further, as it is
evident the legislature chose to use a “well-known term
of art.” See Mann, 150 A.3d at 1234.
The first clause of Subsection (c)(2) requires further
examination, however. We recognize that “[t]he meaning
— or ambiguity — of certain words or phrases may only
become evident when placed in context.” FDA v. Brown
& Williamson Tobacco Corp., 529 U.S. 120, 132, 120 S.
Ct. 1291, 146 L. Ed. 2d 121 (2000). Therefore, “we do
not read statutory words in isolation; the language of
surrounding and related paragraphs may be instrumental
to understanding them.” District of Columbia v. Beretta,
U.S.A., Corp., 872 A.2d 633, 652 (D.C. 2005) (en banc).

32a
Appendix A
In Mann we addressed the role of discovery in the
statutory scheme:
In short, the special motion to dismiss provision
authorizes final disposition of a claim in a
truncated proceeding, usually without the
benefit of discovery, id. § 16-5502(c), to avoid
the toll that meritless litigation imposes on a
defendant who has made a prima facie showing
that the claim arises from advocacy on issues
of public interest.
150 A.3d at 1235. Having recognized that special motions
to dismiss usually will be decided without discovery,
we characterized § 16-5502(c) as providing “a limited
exception that favors the defendant.” Id. at 1237. Thus, the
language of § 16-5502(c) indicates that discovery normally
will not be allowed.
This view is supported by the Act’s legislative history.
While the vast majority of jurisdictions with Anti-SLAPP
Acts permit a court to order specified discovery on a
showing of “good cause,” see, e.g., Cal. Civ. Proc. Code
§ 425.16(g) (2019), the District of Columbia Council
abandoned this language. As introduced, the bill would
have stayed discovery proceedings until the special motion
to dismiss had been disposed of, “except that the court,
for good cause shown, may order that specified discovery
be conducted.” D.C. Council, Comm. On Public Safety and
the Judiciary, Report on Bill 18-893 at 2 (July 7, 2010).
During its testimony before the Committee on Public
Safety and the Judiciary, the American Civil Liberties

33a
Appendix A
Union of the Nation’s Capital (“ACLU”) cautioned that
the “good cause” standard in the proposed bill “has the
disadvantage of being completely subjective so that a judge
. . . can, in effect, set the Anti-SLAPP Act aside and allow
a case to proceed in the usual way.” Anti-SLAPP Act of
2010: Hearing on Bill No. 18-893 before the Committee on
Public Safety and the Judiciary, Council of the District of
Columbia, Statement of Arthur Spitzer, Legal Director,
ACLU at 6 (Sep. 17, 2010). After hearing this testimony,
the Committee added the requirement that the proposed
discovery not be unduly burdensome and replaced the
“for good cause shown” test with the requirement that it
must appear “likely that targeted discovery will enable
the plaintiff to defeat the motion.” November Report at 7.
Given the statutory language and this background,
we conclude that the clause “[w]hen it appears likely
that targeted discovery will enable the plaintiff to defeat
the motion” creates a standard that is difficult to meet.
Discovery must be “targeted” instead of wide-ranging. A
plaintiff seeking discovery must show more than “good
cause,” and he cannot merely argue that the evidence
he seeks would be relevant or helpful. He must be able
to articulate how targeted discovery will enable him to
defeat the special motion to dismiss. He also must show
that it is “likely” the discovery will produce that result.
Moreover, given the use of the word “may,” which is
“quintessentially permissive,” the decision to grant or
deny targeted discovery rests within the trial court’s
broad discretion. In re J.D.C., 594 A.2d 70, 75 (D.C. 1991).
“Discretion signifies choice.” Johnson v. United States, 398

34a
Appendix A
A.2d 354, 361 (D.C. 1979). Under the abuse of discretion
standard, the trial judge “has the ability to choose from a
range of permissible conclusions.” Id. “The appellate court
role in reviewing ‘the exercise of discretion’ is supervisory
in nature and deferential in attitude.” Id. at 362.
In the trial court, appellants requested targeted
discovery to reveal what appellees “were thinking and
doing when they compiled CIR 112 and published it, and
what communications they had with their sources, their
contractees and others regarding the reliability of the
information they had gathered.” Judge Epstein denied
this request, reasoning that appellants had not “shown
a likelihood that [appellees] have information that will
establish actual malice by clear and convincing evidence.”
He cautioned, and we agree, that if courts relied solely on
the premise that the defendants would have better access
to what was in their minds at the time of publication,
“discovery would be justified in every Anti-SLAPP Act
case.” However, as we have shown, it was the legislature’s
intent that discovery ordinarily would not be permitted.
Appellants’ request for discovery does not necessarily
raise concerns of undue burden. However, they have not
shown that it “appears likely” that information gained
from deposing appellees will enable them to defeat the
special motion to dismiss. The key issue in this case is
whether appellants can prove that CIR 112 was published
with actual malice.9 As we have discussed at some length,
9. Appellants also assert that targeted discovery would
allow them to establish that the controversy “giving rise to” the
publication of CIR 112 “was not the controversy identified by the

35a
Appendix A
the fact that Steele did not name his confidential source
in CIR 112, the claim that he was biased because of the
nature of his engagement, and the selective quotations
from the news article do not support an inference of actual
malice. Appellants have not shown why discovery will
likely produce evidence more persuasive than what we
have rejected. It was not an abuse of discretion to deny
targeted discovery.
III.

Conclusion

For the reasons discussed above, we affirm the
judgment of the Superior Court which granted appellees’
special motion to dismiss.

Superior Court.” They claim that if appellees were deposed, they
may “acknowledge that an interest in the ‘Trump-Russia’ question
gave rise to the creation and publication of CIR 112.” However, as
we have discussed above, the controversy must have existed prior
to the defamation, and identifying the motivation for publishing
is not the same as defining the controversy. Appellants have not
shown that discovery targeted in this manner likely would enable
them to defeat the special motion to dismiss.

36a
AppendixOF
B THE SUPERIOR
APPENDIX B — OPINION
COURT OF THE DISTRICT OF COLUMBIA, CIVIL
DIVISION, DATED AUGUST 20, 2018
SUPERIOR COURT OF THE
DISTRICT OF COLUMBIA
CIVIL DIVISION
Case No. 2018 CA 002667 B
GERMAN KHAN, et al.
v.
ORBIS BUSINESS INTELLIGENCE
LIMITED, et al.
ORDER
The Court grants the special motion to dismiss filed by
defendants Orbis Business Intelligence Limited (“Orbis”)
and Christopher Steele under the D.C. Anti-SLAPP
Act, D.C. Code §§ 16-5501 to -5505. The Court therefore
denies as moot Defendants’ motion to dismiss under Rule
12(b)(6) for failure to state a claim upon which relief can
be granted.
This case involves what has become known as the
“Steele Dossier.” The relatively small portion of the Steele
Dossier at issue in this case discusses the relationship
between plaintiffs German Khan, Mikhal Fridman, and
Petr Aven and the Russian government, but it does not
discuss specific information linking them to any Russian

37a
Appendix B
interference in the 2016 U.S. presidential election or to
any specific American candidate. Defendants’ special
motion to dismiss does not require the Court to determine
whether any information in the Steele Dossier is accurate
or inaccurate. The purpose of such a motion is not to
determine whether the defendant actually committed
the tort of defamation. See Competitive Enterprise
Institute v. Mann, 150 A.3d 1213, 1230 (D.C. 2016). The
Court concludes only that the Anti-SLAPP Act requires
dismissal of this case because Defendants have made a
prima facie case that the Act applies to their provision
of this portion of the Steele Dossier to the media, and
Plaintiffs have not submitted evidence that Defendants
knew any of this information was false or acted with
reckless disregard of its falsity.
I.

BACKGROUND

On April 16, 2018, Plaintiffs filed a complaint against
Defendants for defamation. Plaintiffs make the following
allegations in their complaint. Plaintiffs are international
businessmen who are the beneficial owners of Alfa-Bank
(a.k.a. Alfa Group), which is based in Russia; Mr. Fridman
and Mr. Khan are each citizens of both Russia and Israel,
and Mr. Aven is a citizen of Russia.1 Complaint ¶¶ 1, 15. Mr.
Steele is a U.K. citizen and a principal of Orbis, a U.K.based company. See id. ¶¶ 16-17. Defendants were hired in
June 2016 by Fusion GPS (“Fusion”), a Washington, D.C.based firm that conducts political opposition research,
1. Alfa-Bank is spelled as “Alpha” throughout the Steele
Dossier. The Court uses Plaintiffs’ spelling.

38a
Appendix B
to compile information about then-candidate Donald J.
Trump’s ties to Russia and Vladimir Putin. Id. ¶ 5. Fusion
was originally hired during the primary phase of the 2016
election cycle by Republicans. Id. After the Republican
convention, Fusion was hired by the Democratic National
Committee and the campaign of Hillary Clinton. Id.
Mr. Steele compiled the Steele Dossier between June
2016 and October 2016. See Complaint ¶¶ 5-8. The Steele
Dossier consists of seventeen Company Intelligence
Reports (“CIR”). Id. This case focuses on CIR 112, a
one-and-a-half page document entitled “RUSSIA/US
PRESIDENTIAL ELECTION: KREMLIN-ALPHA
GROUP CO-OPERATION.” CIR 112 (Special Motion to
Dismiss Ex. B). CIR 112 identifies Mr. Fridman, Mr. Aven,
and Mr. Khan as “oligarchs” who lead the Alfa Group. The
summary makes three points:
• Alfa Group has a close relationship with President
Vladimir Putin of Russia: “Significant favours
continue to be done in both directions and FRIDMAN
and AVEN still giving informal advice to PUTIN,
especially on the US.”
• The “[k]ey intermediary” in the relationship is
Oleg Govorun, who “delivered illicit cash directly
to PUTIN” throughout the 1990s when President
Putin was the deputy mayor of St. Petersburg.
• President Putin is not personally bothered about
Alfa’s current lack of investment in Russia, but he is
“able to exploit it as lever over Alpha interlocutors.”

39a
Appendix B
The body of CIR 112 does not refer the 2016 U.S.
presidential election. CIR 112 also does not contain
a specific allegation that any Plaintiff gave advice to
President Putin relating to the election or attempted to
influence the election in any way, or that Alfa Group’s
“cooperation” with the Russian government extended to
the election. CIR 112 states that “FRIDMAN and AVEN
continued to give informal advice to PUTIN on foreign
policy, and especially about the US where he distrusted
advice being given to him by officials.” CIR 112 states that
Mr. Fridman and Mr. Aven used Mr. Govorun in the 1990s
to “deliver large amounts of illicit cash to the Russian
president, at the time deputy Mayor of St. Petersburg.”
In the summer of 2016, Mr. Steele briefed members of
the print and online media about the contents of the Steele
Dossier. Complaint ¶ 9. On January 10, 2017, BuzzFeed,
Inc. published the full Steele Dossier, including CIR 112.
See id. ¶ 12.
On May 30, 2018, Defendants filed a special motion
to dismiss (“Motion”) and a motion to dismiss under
Rule 12(b)(6). On July 6, Plaintiffs filed an opposition to
both the special motion to dismiss (“Opp.”) and the Rule
12(b)(6) motion. On July 24, Defendants filed a reply in
support of their special motion to dismiss (“Reply”) and
a reply in support of their Rule 12(b)(6) motion.

40a
Appendix B
II. LEGAL STANDARD
A.

The Anti-SLAPP Act

“A ‘SLA PP ’ (strateg ic lawsuit against public
participation) is an action ‘filed by one side of a political
or public policy debate aimed to punish or prevent the
expression of opposing points of view.’” Mann, 150 A.3d
at 1226 (quoting legislative history). The Anti-SLAPP
Act tries “to deter SLAPPs by ‘extend[ing] substantive
rights to defendants in a SLAPP, providing them with the
ability to file a special motion to dismiss that must be heard
expeditiously by the court.’” Id. at 1235 (quoting legislative
history). “Consistent with the Anti-SLAPP Act’s purpose
to deter meritless claims filed to harass the defendant for
exercising First Amendment rights, true SLAPPs can be
screened out quickly by requiring the plaintiff to present
her evidence for judicial evaluation of its legal sufficiency
early in the litigation.” Id. at 1239.
“Under the District’s Anti-SLAPP Act, the party
filing a special motion to dismiss must first show
entitlement to the protections of the Act by ‘mak[ing] a
prima facie showing that the claim at issue arises from
an act in furtherance of the right of advocacy on issues
of public interest.’” Mann, 150 A.3d at 1227 (quoting D.C.
Code § 16-5502(b)).
“Once that prima facie showing is made, the burden
shifts to the nonmoving party, usually the plaintiff, who
must ‘demonstrate[] that the claim is likely to succeed
on the merits.’” Mann, 150 A.3d at 1227 (quoting § 16-

41a
Appendix B
5502(b)). “[O]nce the burden has shifted to the claimant,
the statute requires more than mere reliance on
allegations in the complaint, and mandates the production
or proffer of evidence that supports the claim.” Id. at
1233. “[I]n considering a special motion to dismiss, the
court evaluates the likely success of the claim by asking
whether a jury properly instructed on the applicable
legal and constitutional standards could reasonably find
that the claim is supported in light of the evidence that
has been produced or proffered in connection with the
motion.” Id. at 1232. “This standard achieves the AntiSLAPP Act’s goal of weeding out meritless litigation by
ensuring early judicial review of the legal sufficiency of
the evidence, consistent with First Amendment principles,
while preserving the claimant’s constitutional right to a
jury trial.” Id. at 1232-33.
“If the plaintiff cannot meet that burden [to establish
a likelihood of success], the motion to dismiss must be
granted, and the litigation is brought to a speedy end.”
Mann, 150 A.3d at 1227. Section 16-5502(d) provides, “If
the special motion to dismiss is granted, dismissal shall
be with prejudice.” Section 16-5502(d) also requires the
Court to hold an “expedited hearing” on the motion and to
issue a ruling “as soon as practicable after the hearing.”
Under D.C. Code § 16-5502(c)(1), the filing of a motion
to dismiss generally results in an automatic stay of
discovery “until the motion has been disposed of.” Section
16-5502(c)(2) provides for an exception: “When it appears
likely that targeted discovery will enable the plaintiff to
defeat the motion and that the discovery will not be unduly

42a
Appendix B
burdensome, the court may order that specified discovery
be conducted.”
B. Defamation
“To succeed on a claim for defamation, a plaintiff must
prove (1) that the defendant made a false and defamatory
statement concerning the plaintiff; (2) that the defendant
published the statement without privilege to a third party;
(3) that the defendant’s fault in publishing the statement
met the requisite standard; and (4) either that the
statement was actionable as a matter of law irrespective
of special harm or that its publication caused the plaintiff
special harm.” Mann, 150 A.3d at 1240 (quotation and
brackets omitted).
“A statement is defamatory if it tends to injure the
plaintiff in his trade, profession or community standing,
or lower him in the estimation of the community.” Mann,
150 A.3d at 1241 (quotation and brackets omitted). “To
evaluate whether a statement is capable of defamatory
meaning, courts employ a two-part framework that
asks: (a) whether a communication is capable of bearing
a particular meaning, and (b) whether that meaning is
defamatory.” Zimmerman v. Al Jazeera America, LLC,
246 F. Supp. 3d 257, 273 (D.D.C. 2017) (quotations and
citation omitted).
In defamation cases that rely on statements made
about public figures concerning matters of public concern,
plaintiffs must prove – by clear and convincing evidence
– that defendants acted with actual malice. Mann, 150

43a
Appendix B
A.3d at 1251-52. “A plaintiff may prove actual malice
by showing that the defendant either (1) had subjective
knowledge of the statement’s falsity, or (2) acted with
reckless disregard for whether or not the statement was
false.” Id. at 1252 (quotation omitted); see New York Times
v. Sullivan, 376 U.S. 254, 280-81 (1964). “The ‘reckless
disregard’ measure requires a showing higher than mere
negligence; the plaintiff must prove that ‘the defendant
in fact entertained serious doubts as to the truth of [the]
publication.’” Mann, 150 A.3d at 1252 (quoting St. Amant
v. Thompson, 390 U.S. 727, 731 (1968)).
The “actual malice” standard applies to statements
about public figures. A public figure can be either a
limited-purpose public figure or a general-purpose public
figure:
General purpose public figures because of
their position of such pervasive power and
influence are deemed public figures for all
purposes. Limited-purpose public figures, that
is, individuals who assume roles in the forefront
of particular public controversies in order to
influence the resolution of the issues involved,
are deemed public figures only for purposes of
the controversy in which they are influential.
Doe No. 1 v. Burke, 91 A.3d 1031, 1041 (D.C. 2014) (citations
and quotations omitted). The Court of Appeals has adopted
a three-part test as a roadmap to determine whether
an individual is a limited-purpose public figure. Moss
v. Stockard, 580 A.2d 1011, 1030 (D.C. 1990) (following

44a
Appendix B
Waldbaum v. Fairchild Publications, Inc., 627 F.2d
1287 (D.C. Cir. 1980)). The Court “should first decide
whether there is a public controversy, and determine its
scope.” Moss, 580 A.2d at 1030. “[T]his inquiry has two
components: (1) whether the controversy to which the
defamation relates was the subject of public discussion
prior to the defamation, … and (2) whether a reasonable
person would have expected persons beyond the
immediate participants in the dispute to feel the impact of
its resolution.” Id. (quotation omitted). Second, the Court
must determine the plaintiff’s role in the controversy:
“The plaintiff must have achieved a special prominence in
the debate, and either must have been purposely trying
to influence the outcome or could realistically have been
expected, because of his position in the controversy, to
have an impact on its resolution.” Id. (quotation from
Waldbaum omitted). “In undertaking this analysis, a
court can look to the plaintiff‘s past conduct, the extent
of press coverage, and the public reaction to his conduct
and statements.” Waldbaum, 627 F.2d at 1297. The third
and last “question is whether the alleged defamation was
germane to the plaintiff’s participation in the controversy.”
Moss, 580 A.2d at 1031.
III.

DISCUSSION

Plaintiffs make four arguments: (a) Defendants cannot
seek protection under the Anti-SLAPP Act because
they are not entitled to any protections under the First
Amendment; (b) Defendants do not make a prima facie
case under the Anti-SLAPP Act that Plaintiffs’ claims
arise from an act in furtherance of the right of advocacy

45a
Appendix B
on issues of public interest; (c) Plaintiffs have shown they
are likely to succeed on the merits; and (d) Plaintiffs are
at least entitled to targeted discovery to enable them to
defeat the motion. The Court addresses each argument
in turn.
A.

Applicability of First Amendment protections

Plaintiffs contend that the Anti-SLAPP Act does
not apply unless the First Amendment applies and that
Defendants do not have First Amendment rights because
Mr. Steele is a non resident alien with British citizenship
and Orbis is a U.K.-based company. See Opp. at 1. The
Court does not agree.
The Court assumes without deciding that the AntiSLAPP Act applies only to conduct that is protected by the
First Amendment. “To establish the grounds for either of
the two procedural protections the Anti-SLAPP statute
affords – dismissal of the suit or quashing of a subpoena –
the moving party must show that his speech is of the sort
that the statute is designed to protect.” See Doe No. 1, 91
A.3d at 1036 (emphasis added). The Act does not explicitly
limit its protection to activity that is also protected by the
First Amendment, and indeed the Act’s legislative history
indicates that the Council intended the Act to apply more
broadly. 2 In addition, by its terms, the Anti-SLAPP Act
2. Section 2(1)(B) of the initial version of the Anti-SLAPP Act
introduced in June 2010 defined protected activity to include “any
other conduct in furtherance of the exercise of the constitutional
right to petition the government or the constitutional right of free
expression in connection with an issue of public interest.” See Bill

46a
Appendix B
does not limit its protections to U.S. citizens or entities.
Although Plaintiffs argue otherwise (Opp. at 1), the plain
language of D.C. Code § 16-5502(a) indicates that any
party can file a special motion to dismiss. Reading an
implied limitation to District residents into the Act would
be contrary to the purposes of the Act and the First
Amendment to provide broad protection for speech on
issues of public interest (as the Court discusses in the next
paragraph). In addition, Plaintiffs have not cited, and the
Court is not aware of, any case holding that the defenses
that a defendant in a defamation case may assert under
D.C. law or the First Amendment depend on whether the
defendant is a U.S. citizen or entity. 3
18-893: “Anti-SLAPP Act of 2010” (Motion Ex. A). In September
2010, the American Civil Liberties Union of the Nation’s Capital
(“ACLU”) proposed changing this definition because the “purpose
of an anti-SLAPP law is to provide broader protection than
existing law already provides,” and courts should not have to
determine whether conduct is covered by the Constitution before
they can determine whether it is protected by the Act. See
Testimony of the American Civil Liberties Union of the Nation’s
Capital at 5 (Motion Ex. A). Section 16-5501(1)(B) codifies the
ACLU’s proposed alternative by making the Act applicable to “Any
other expression or expressive conduct that involves petitioning
the government or communicating views to members of the public
in connection with an issues of public interest.” See id. at 5.
3. It is ironic that Plaintiffs, who are non-resident aliens with
Russian and/or Israeli citizenship (Complaint ¶ 15), argue that
non-resident aliens do not have rights that the First Amendment
requires a U.S. court to respect – while petitioning a U.S. court for
a redress of their grievances and invoking a constitutional right
to conduct discovery (Opp. at 25). See Stuart v. Walker, 143 A.3d
761, 767 (D.C. 2016) (“[T]he right of access to courts for redress

47a
Appendix B
Plaintiffs contend that even if Defendants’ speech
involves issues of public interest in the United States,
it is unprotected by the First Amendment because Mr.
Steele is not a U.S. citizen or resident and Orbis is not
a U.S. company. However, advocacy on issues of public
interest has the capacity to inform public debate, and
thereby furthers the purposes of the First Amendment,
regardless of the citizenship or residency of the speaker.
The First Amendment protects our “profound national
commitment to the principle that debate on public issues
should be uninhibited, robust, and wide-open.” New
York Times v. Sullivan, 376 U.S. at 270. Constitutional
standards for defamation cases have been developed to
safeguard the “important societal interest in vigorous
debate over matters of public concern protected by the
First Amendment.” See Mann, 150 A.3d at 1241. Moreover,
the First Amendment “guarantees are not for the benefit
of the press so much as for the benefit of all of us.” Time,
Inc. v. Hill, 385 U.S. 374. 389 (1967). “It is now well
established that the Constitution protects the right to
receive information and ideas.” Kleindienst v. Mandel,
of wrongs is an aspect of the First Amendment right to petition
the government.”) (quoting Borough of Duryea v. Guarnieri,
564 U.S. 379, 387 (2011)); Douglas v. Kriegsfeld Corp., 849 A.2d
951, 994 (D.C. 2004) (“The right of access to the courts is but one
aspect of the broader right, protected by the First Amendment,
to petition the government for redress of grievances,” and “[m]
eaningful access to the courts is a fundamental right of citizenship
in this country.”) (quotations omitted). Plaintiffs do not explain
why non-resident aliens have the same rights as U.S. citizens to
bring defamation actions, but non-resident aliens do not have the
same rights as U.S. citizens to defend themselves.

48a
Appendix B
408 U.S. 753, 762-63 (1972) (citations and quotations
omitted). As a result, the interest of U.S. citizens in
receiving information that the First Amendment protects
does not depend on whether the speaker is a U.S. citizen
or resident.
It is in this context that the Court evaluates Plaintiffs’
argument that the First Amendment does not apply
to Defendants’ speech. It is well established that noncitizens “enjoy certain constitutional rights.” See United
States v. Verdugo-Urquidez, 494 U.S. 259, 271 (1990)
(citing Plyler v. Doe, 457 U.S. 202, 211-212 (1982) (illegal
aliens are protected by Equal Protection Clause); Kwong
Hai Chew v. Colding, 344 U.S. 590, 596 (1953) (resident
alien is a “person” within the meaning of the Fifth
Amendment); Bridges v. Wixon, 326 U.S. 135, 148 (1945)
(resident aliens have First Amendment rights); Russian
Volunteer Fleet v. United States, 282 U.S. 481 (1931)
(Just Compensation Clause of Fifth Amendment); Wong
Wing v. United States, 163 U.S. 228, 238 (1896) (resident
aliens entitled to Fifth and Sixth Amendment rights);
Yick Wo v. Hopkins, 118 U.S. 356, 369 (1886) (Fourteenth
Amendment protects resident aliens)). Verdugo-Urquidez,
494 U.S. at 259, indicates that a non-citizen must have
“substantial connections with the country” before he
can “receive constitutional protections.” See Johnson v.
Eisentrager, 339 U.S. 763, 770 (1950) (“The alien, to whom
the United States has been traditionally hospitable, has
been accorded a generous and ascending scale of rights
as he increases his identity with our society.”).

49a
Appendix B
To paraphrase National Council of Resistance of
Iran v. Department of State, 251 F.3d 192, 202 (D.C.
Cir. 2001), the Court need not undertake to determine,
as a general matter, how “substantial” a non-resident
alien’s connections with this country must be to merit
the protections of the First Amendment for speech in
the United States. The Court need not define the precise
line because Mr. Steele and Orbis and their speech have
ample connections with the United States that are clearly
substantial enough to merit First Amendment protection.
According to Plaintiffs’ own complaint, U.S. clients
hired Mr. Steele and Orbis, and a U.S. presidential
candidate was the subject of the investigation that they
were hired to conduct. See Complaint ¶ 5. Furthermore,
Mr. Steele was in the United States when he briefed
U.S.-based media organizations about the results of
his investigation, and Plaintiffs do not dispute that Mr.
Steele was lawfully present in the United States when
he provided his briefings. 4 These U.S.-based media
organizations reported on allegations in the Steele Dossier
in the United States. See id. ¶¶ 9, 11. Plaintiffs themselves
allege that the Court has jurisdiction because “Orbis and
Steele transacted business in the District of Columbia.”
Complaint ¶ 20. Plaintiffs’ summary of their jurisdictional
allegations is apt: “In sum, Steele, acting for himself and
Orbis, has engaged in a persistent course of conduct, often
with Fusion and Simpson, intended to have and which did
have effects in the District, by meeting with District based
4. The Court does not suggest that aliens who are not legally
present in the United States automatically lack First Amendment
rights. This case does not present that issue.

50a
Appendix B
media and government employees to bring his reports on
‘Russia matters’ to their attention.” Complaint ¶ 20; see id.
¶ 1 (Fusion is based in Washington, and Glenn Simpson
is Fusion’s principal).
Moreover, Plaintiffs recognize that Mr. Steele had
substantial ongoing connections with the United States
even before U.S. clients hired him to gather information
relating to the 2016 presidential election:
Steele, on behalf of himself and Orbis, has
engaged in other ongoing business relationships
with entities located in the District. Steele
and Orbis have been retained repeatedly by
the District-based F.B.I. to assist in various
investigations between 2009 and 2016, and, as
alleged above, Steele and Orbis have had an
ongoing professional relationship with Fusion
for years. And as also noted above, according
to Winer, during his 2013-2016 employment at
the State Department in the District, Steele/
Orbis provided over 100 intelligence reports,
many of which Winer shared with other State
Department officials.
Complaint ¶ 21.
Plaintiffs argue that “Defendants must show that
they have, in some form, assumed the obligations of the
people,” Opp. at 5 (quotation and citation omitted), and
Defendants assumed at least one important “obligation”
of “the people” – by accepting the Court’s jurisdiction,

51a
Appendix B
Defendants assumed the obligation to pay any judgment
that might ultimately be entered against them in a U.S.
court. By assuming this obligation, Defendants also
assumed the concomitant right to raise the same defenses
available to U.S. citizens and resident aliens who are sued
for defamation.
Plaintiffs rely on Hoffman v. Bailey, 996 F. Supp. 2d
477 (E.D. La. 2014), which held that a British national could
not invoke the Louisiana Anti-SLAPP Act because he did
not have First Amendment protection. See Opp. at 4-5.
However, in Hoffman, the defendant’s only contact with
the United States was that he sent the email that formed
the basis of the defamation claim to a Louisiana resident.
See Hoffman, 996 F. Supp. at 488-89. Here, Defendants
and their speech have far more substantial contacts with
the United States.
Because Defendants have substantial and ongoing
connections with the United States and their speech in
the United States concerns matters of public concern in
the United States, Defendants’ speech is protected by the
First Amendment. Therefore, even if the Anti-SLAPP
Act protects only speech also protected by the First
Amendment their speech is covered by the Act.
B. Prima facie showing
Defendants have made a prima facie showing that
Plaintiffs’ claims arise from “an act in furtherance of the
right of advocacy on issues of public interest” within the
meaning of § 16-5501(1). Section 16-5501(1) defines an

52a
Appendix B
“act in furtherance of the right of advocacy on issues of
public interest” to include “[a]ny written or oral statement
made … [i]n a place open to the public or a public forum
in connection with an issue of public interest; … or
[a]ny other expression or expressive conduct that involves
… communicating views to members of the public in
connection with an issue of public interest.” Section 165501(3) defines an “issue of public interest” to include
an issue related to “community well-being” or “a public
figure.”
1.

The right of advocacy

Plaintiffs themselves allege that Defendants
“intended, anticipated or foresaw” that providing a copy
of the Steele Dossier, including CIR 112, to third parties
would likely result in the Steele Dossier being published
by the media, and that “[b]y their direct and intentional
publication to third parties … the Defendants published
to a worldwide public false and defamatory statements
concerning Plaintiffs and Alfa.” See Comp. ¶¶ 13, 43. The
Court disagrees with both of Plaintiffs’ two arguments
that Defendants’ provision of the Steele Dossier to the
media with this intent and expectation was not “an act in
furtherance of the right of advocacy.”
First, Plaintiffs contend that Defendants’ statements
to the media were outside the scope of the Anti-SLAPP
Act because “the Complaint [does not] allege or suggest
that Defendants’ defamatory statements were made
‘in a place open to the public or a public forum.’” Opp.
at 7 (quoting § 16-5501(1)(A)(ii)); id at 8 (“it is dubious

53a
Appendix B
that Defendants’ private discussions with members
of the media and others constitute ‘public’ statements
or expressions”). However, § 16-5501(1) applies in the
disjunctive either to statements “[i]n a place open to the
public or a public forum in connection with an issue of
public interest; … or [a]ny other expression or expressive
conduct that involves … communicating views to members
of the public in connection with an issue of public interest.”
(Emphasis added.) Even if Mr. Steele did not meet with the
media in a public place or forum, he engaged in expression
involving communicating information to members of the
U.S. public through the media. As the Court explains
above, Plaintiffs challenge Mr. Steele’s provision of his
dossier to the media precisely because he expected and
intended the media to communicate the information to the
public in the United States and around the world.
Second, Plaintiffs argue that “the Complaint’s
allegations in no way suggest that Steele was hired to
express ‘views,’ or that he did so,” and they suggest that
the Anti-SLAPP Act does not protect the provision of
“raw intelligence” to the media. See Opp. at 7-8 (emphasis
in original). However, the public is interested in facts as
well as opinions, and whether Defendants were originally
hired to express views or collect facts, they provided
factual information to the U.S. public through U.S. media
relating to issues of public interest in the United States.
The First Amendment protects not only statements of
pure opinion but also statements of fact and of opinions
that imply or rely on provably false facts, unless the
plaintiff proves that the statements are false and that
the defendant’s fault in publishing the statements met the

54a
Appendix B
requisite standard. See Mann, 150 A.3d at 1240-41; Opp.
at 12. Protection under the Anti-SLAPP Act is at least as
broad as protection under the First Amendment, so the
Act applies to statements that consist of “raw intelligence.”
2.

Issues of public interest

Defendants have made, at a minimum, a prima facie
case that the information in the Steele Dossier generally,
and the information in CIR 112 in particular, involves
“issues of public interest.”
It is appropriate to interpret the term “issues of
public interest” in § 16-5501(3) in light of defamation
cases defining whether the controversy in which the
plaintiff is involved is public. In these defamation cases,
“courts often define the public controversy in expansive
terms,” and “a court may find that there are multiple
potential controversies, and it is often true that ‘a
narrow controversy may be a phase of another, broader
one.’” Jankovic v. International Crisis Group, 822 F.3d
576, 586 (D.C. Cir. 2016) (quoting Waldbaum, 627 F.2d
at 1297 n.27). Defendants argue that CIR 112 involves
two issues of public interest: (1) relationships between
Russian oligarchs and the Russian government and (2)
Russian interference in the 2016 U.S. presidential election.
Reply at 10. The Court adds that relations between the
United States and Russia more generally (and not just
related to alleged Russian interference with the 2016 U.S.
presidential election) is an issue of public interest in the
United States. Plaintiffs contend that they are not public
figures with respect to these issues of public interest.

55a
Appendix B
The Steele Dossier as a whole plainly concerns an
“issue of public interest” within the meaning of § 165501(3) because it relates to possible Russian interference
with the 2016 presidential election. The Steele Dossier
generated so much attention and interest in the United
States precisely because its contents relate to active
public debates here. See Waldbaum, 627 F.2d at 1296-97
(courts “may not question the legitimacy of the public’s
concern” to avoid becoming “censors of what information
is relevant to self-government”) (quoting Supreme Court
cases). Plaintiffs themselves “readily agree that the 2016
U.S. Presidential election was of public interest.” Opp. at
9. A key part of Plaintiffs’ case is that CIR 112 implicitly
alleged that Plaintiffs aided “the Kremlin’s interference
in the 2016 U.S. Presidential election,” Opp. at 1, and
Plaintiffs cannot contend both that Defendants in CIR 112
accused them of cooperation with Russian interference in
the election and that these statements did not involve an
issue of public interest in the United States. Plaintiffs own
contentions therefore establish at least a prima facie case
that Defendants’ allegedly defamatory statements involve
a matter of public interest.
Moreover, CIR 112 expressly discusses Russian
foreign policy toward the United States and President
Putin’s advisors on Russia-U.S. policy, and these too are
issues of public interest within the meaning of § 16-5501(3).
Contrary to their argument that Defendants defamed them
by accusing them of complicity in Russian interference
with the 2016 U.S. presidential election, Plaintiffs argue
that CIR 112 does not relate to an issue of public interest
because it does not mention any presidential candidate by

56a
Appendix B
name or explicitly address the 2016 presidential election.
See Opp. at 8-9, 20-21. However, involvement of Russian
international businessmen in Russian foreign policy,
specifically including Russian foreign policy toward the
United States, involves an issue of public interest in
the United States, regardless of whether it relates to a
particular election.
For these reasons, Defendants have made a prima
facie case that the expressive conduct that forms the basis
of Plaintiffs’ defamation claim involves an “issue of public
interest,” even if they do not also make a prima facie case
that Plaintiffs are public figures. Speech may involve an
issue of public interest within the meaning of the Act even
if the speech does not involve a public figure, so Defendants
are entitled to the protection of the Anti-SLAPP Act on
this basis alone.
In fact, Defendants have made a prima facie case that
the Steele Dossier in general, and CIR 112 in particular,
involve public figures. It would appear to be beyond
dispute that President Putin, who is discussed in CIR
112, is a general-purpose public figure. See Doe No. 1, 91
A.3d at 1041 (“General purpose public figures because of
their position of such pervasive power and influence are
deemed public figures for all purposes.”).
Furthermore, Plaintiffs are public figures for at
least a limited purpose related to the information in CIR
112. In some cases “[t]he task of determining whether a
defamation plaintiff is a limited-purpose public figure is
a difficult one, requiring a highly fact-intensive inquiry

57a
Appendix B
that some have described as trying to nail a jellyfish to the
wall.” Id. at 1041-42. The task is easier in this case. OAO
Alfa Bank v. Center for Public Integrity, 387 F. Supp. 2d
20 (D.D.C. 2005), was a defamation case brought by Mr.
Fridman, Mr. Aven, and their companies, and the court
held as a matter of law that the evidence in that case
eliminated any genuine dispute that they “are limited
public figures”: the plaintiffs made choices that placed
them “squarely in the public light;” they “have been
the subject of widespread news coverage;” they “enjoy
access to the channels of effective communication that
enable them to respond to any defamatory statements
and influence the course of public debate;” and “Aven
and Fridman have used their positions to influence the
events of their country and the world, and have assumed
a prominent role in the civic life of Russia, associating
closely and openly with the Russian business elite and
politicians at the highest positions of government.” See id.
at 44-46 (quotation omitted); see id. at 25-28. “Simply put,
Aven and Fridman are players on the world stage; hence,
they are limited public figures not only in Russia, but in
the United States as well.” See id. at 47. The same is true
of Mr. Khan: like Mr. Fridman and Mr. Aven, Mr. Khan
is a beneficial owner of Alfa, Complaint ¶ 15; and he has
had similar prominence and media coverage. See Motion
at 8 (an Internet search yielded 5,311 articles mentioning
Mr. Khan, slightly more than those mentioning Mr. Aven).
These findings in OAO Alfa Bank are valid today. See
Motion at 8, 11-13 (including recent articles in examples
of extensive media coverage of all three Plaintiffs going
back to the 1990s). Plaintiffs dismiss them as “findings

58a
Appendix B
of another court in another decade in connection with
unrelated defamatory statements.” See Opp. at 21 n.26.
OAO Alfa Bank is not a relic from a bygone era, and
Plaintiffs do not contend that they have become recluses
in the last decade. Nothing suggests in the intervening
decade a significant decrease in the fortunes of Alfa Group
or the role of Russian oligarchs.
Plaintiffs therefore are limited-purpose public
figures for the broad controversy relating to Russian
oligarchs’ involvement with the Russian government and
its activities and relations around the world, including the
United States. The U.S. public today continues to have
a strong interest in Russia’s relations with the United
States and in the political and commercial relationships
between Russian oligarchs and the Russian government.
Deripaska v. AP, 282 F. Supp. 3d 133, 142 (D.D.C. 2017)
(“there can be no doubt a public controversy exists
relating to Russian oligarchs acting on behalf of the
Russian government.”). Plaintiffs have assumed special
prominence in these controversies, and the statements
in CIR 112 are germane to these controversies. See OAO
Alfa Bank, 387 F. Supp. 2d at 43-44.
For all of these reasons, Defendants have made a
prima facie case that their speech involved issues of public
interest and that Plaintiffs are limited-purpose public
figures.
C.

Likelihood of success on the merits

Because Defendants have made this prima facie
case, the burden shifts to Plaintiffs to offer evidence that

59a
Appendix B
would permit a jury properly instructed on the applicable
legal and constitutional standards to reasonably find that
Defendants are liable for defamation. See Mann, 150
A.3d at 1232. “The precise question the court must ask,
therefore, is whether a jury properly instructed on the
law, including any applicable heightened fault and proof
requirements, could reasonably find for the claimant on
the evidence presented.” Id. at 1236. Because Defendants’
speech concerned a matter of public concern and Plaintiffs
are limited-purpose public figures, Plaintiffs would have
the burden at trial to prove by clear and convincing
evidence that Defendants acted with actual malice – that
is, “‘that the statement was made … with knowledge that
it was false or with reckless disregard of whether it was
false or not.’” Thompson v. Armstrong, 134 A.3d 305,
311 (D.C. 2016) (quoting New York Times Co., 376 U.S. at
279-80). Plaintiffs have not carried their burden because
they do not offer evidence that a reasonable jury could find
to be clear and convincing proof that Defendants knew
that facts stated in, or reasonably implied by, CIR 112
were false or that they published CIR 112 with reckless
disregard of the falsity of these stated or implied facts.
Plaintiffs contend that they have shown actual malice
because “a careful reading of the text of CIR 112 reveals
that it contains no support for the implication in CIR
112’s headline that Plaintiffs ‘cooperated’ in Russian
interference in the U.S. Presidential election of 2016. In
doing so, Defendants essentially admit that they have no
facts to support that defamatory statement.” See Opp. at
22. If it is plain from a reading of CIR 112 that Defendants
do not have any evidence that Plaintiffs cooperated in
Russian interference with this election beyond information

60a
Appendix B
that Plaintiffs have had a long and close relationship with
the Russian government and gave advice to President Putin
about Russia’s relations with the United States, it would be
plain that Defendants were engaging in speculation to the
extent CIR 112 suggests that the Plaintiffs cooperated in
Russian interference with the U.S. presidential election.
However, under the First Amendment, a statement is not
actionable “if it is plain that a speaker is expressing a
subjective view, an interpretation, a theory, conjecture, or
surmise.” See Mann, 150 A.3d at 1241 (quotation omitted);
Levin v. McPhee, 119 F.3d 189, 197 (2d Cir. 1997) (“When
the defendant’s statements, read in context, are readily
understood as conjecture, hypothesis, or speculation,
this signals the reader that what is said is opinion, and
not fact.”).
A reader could reasonably infer that inclusion of
CIR 112 in a collection of reports relating to Russian
interference in the 2016 U.S. presidential election was
not gratuitous, and CIR 112 is capable of bearing the
meaning that that the nature of the overall relationship
between Plaintiffs and the Russian government creates
a reasonable possibility that they were involved, as
advisors or participants, in any Russian interference
with the U.S. election. See Zimmerman, 246 F. Supp. 3d
at 273. 5 However, Plaintiffs do not offer any evidence that
Defendants knew, or recklessly disregarded substantial
information, that no conceivable possibility existed that
Plaintiffs were involved in any such Russian interference.
5. The Court need not and does not decide whether this
meaning is defamatory.

61a
Appendix B
The failure to include supporting facts does not support
a reasonable inference by clear and convincing evidence
that Defendants knew the statements were false or acted
in reckless disregard to their falsity: lacking supporting
information is different from having opposing information;
and although lack of evidence may establish negligence,
negligence “is constitutionally insufficient to show the
recklessness that is required for a finding of actual
malice.” See New York Times Co., 376 U.S. at 288.
Plaintiffs argue that only a reckless person would
publish CIR 112 to third parties. See Opp. at 22. “But it
is not enough to show that defendant should have known
better; instead, the plaintiff must offer evidence that the
defendant in fact harbored subjective doubt.” Jankovic,
822 F.3d at 589-90. “The plaintiff can make this showing,
for example, by offering evidence that it was highly
probable that the story was (1) fabricated; (2) so inherently
improbable that only a reckless person would have put it in
circulation; or (3) based wholly on an unverified anonymous
telephone call or some other source that defendant had
obvious reason to doubt.” Id. Plaintiffs do not offer
evidence that Mr. Steele in fact had subjective doubts or
recklessly disregarded information about its falsity, or
that Defendants had obvious reason to doubt the source
described in CIR 112 as a “trusted compatriot” of a “top
level Russian government official.” See OAO Alfa Bank,
387 F. Supp. 2d at 1253-54 (a publisher does not have a duty
to corroborate even when a single source of potentially
libelous material is a person of questionable credibility);
St. Amant, 390 U.S. at 733 (“Failure to investigate does
not in itself establish bad faith.”); see Gertz v. Robert

62a
Appendix B
Welch, 418 U.S. 323, 332 (1974) (“mere proof of failure
to investigate, without more, cannot establish reckless
disregard for the truth.”). Moreover, the information in
the Steele Dossier about corrupt payments to Russian
public officials was consistent with other information in
the public domain: “Although Alfa Bank has developed a
reputation in the international community as one of the
most respected Russian financial institutions, Aven and
Fridman have been dogged by allegations of corruption
and illegal conduct.” OAO Alfa Bank, 387 F. Supp. 2d at
28 (footnote omitted). Mr. Fridman himself acknowledged
that the “rules of business” in Russia “are quite different
to western standards” and to “be completely clean and
transparent is not realistic.” Id. at 29.
Plaintiffs arg ue that Mr. Steele doubted the
truthfulness of some of the Steele Dossier based on
a publication stating that Mr. Steele “estimated that
between 10 and 30 percent of his ‘raw intelligence’ would
ultimately prove inaccurate.” Opp. at 23. However, even
putting aside whether this publication falls within any
exception to the hearsay rule, a belief that most, if not
almost all, of the information would ultimately prove to
be accurate is hard to square with actual malice. In any
event, “defamation plaintiffs cannot show actual malice
in the abstract; they must demonstrate actual malice
in conjunction with a false defamatory statement.”
Tavoulareas v. Piro, 817 F.2d 762, 794 (D.C. Cir. 1987)
(en banc) (emphasis in original). Plaintiffs do not allege
that Mr. Steele subjectively believed that the 10-30% of
the Steele Dossier that would ultimately turn out to be
inaccurate included CIR 112 or that Mr. Steele knew any

63a
Appendix B
fact stated or implied in CIR 112 was false or acted with
reckless disregard to its falsity.
Plaintiffs argue that Defendants have not demonstrated
that the statements are true. See Opp. at 22. However, the
burden is on Plaintiffs to show that the statements were
false, not on Defendants to demonstrate their truth. See
New York Times Co., 376 U.S. at 271; Beeton v. District of
Columbia, 779 A.2d 918, 923 (D.C. 2001) (the plaintiff in a
defamation action must show “that the defendant made a
false and defamatory statement concerning the plaintiff”)
(quotations and citations omitted).
Because Plaintiffs have not offered evidence supporting
a clear and convincing inference that Defendants made
any defamatory statement in CIR 112 with knowledge that
it was false or with reckless disregard of its falsity, they
have not offered evidence that their claims are likely to
succeed on the merits.
D.

Targeted discovery

Section 16-5502(c)(2) provides, “When it appears
likely that targeted discovery will enable the plaintiff
to defeat the motion and that the discovery will not be
unduly burdensome, the court may order that specified
discovery be conducted.” Plaintiffs have not shown that
it is likely that any discovery that is targeted and not
unduly burdensome will enable them to defeat the special
motion to dismiss. More specifically, Plaintiffs do not
show that any such discovery is likely to uncover clear
and convincing evidence that, for example, Mr. Steele

64a
Appendix B
fabricated any information provided in CIR 112 or had
solid intelligence that his source(s) fabricated it.
Plaintiffs suggest that they should be allowed to
conduct discovery because Defendants have exclusive
control over evidence about their subjective state of
mind. See Opp. at 24. However, Plaintiffs have not shown
a likelihood that Defendants have information that will
establish actual malice by clear and convincing evidence.
If targeted discovery were justified solely by the fact that
a defendant in a defamation case is the best, if not only,
source of information about his subjective knowledge of
the truth or falsity of the challenged statement, discovery
would be justified in every Anti-SLAPP Act case.
Citing Herbert v. Lando, 441 U.S. 453 (1979), Plaintiffs
contend that “defamation plaintiffs burdened with proof
of actual malice are entitled to discovery of a media
defendant’s editorial process as a constitutional matter.”
See Opp. at 24-25 (emphasis in original). However, the
Constitution does not entitle plaintiffs in defamation
cases to conduct fishing expeditions. The provision of
the Anti-SLAPP Act permitting targeted discovery
only if the plaintiff shows a likelihood that discovery will
produce clear and convincing evidence of actual malice is
consistent with plaintiffs’ constitutional rights, including
their right to trial by jury. Cf. Mann, 150 A.3d at 1232-33.
It is also consistent with more general direction from the
Supreme Court “to expeditiously weed out unmeritorious
defamation suits” in order to “preserve First Amendment
freedoms.” See Kahl v. Bureau of National Affairs, Inc.,
856 F.3d 106, 108 (D.C. Cir. 2017). Herbert holds only

65a
Appendix B
that in a case where discovery is warranted, the First
Amendment does not allow a media entity to claim absolute
privilege over its editorial processes. See Herbert, 441 U.S.
at 158, 175. Herbert does not hold that the Constitution
gives an absolute right to discovery by any plaintiff
who has the burden to show actual malice by clear and
convincing evidence and who can only speculate that
discovery will enable him to prove his case.
IV. CONCLUSION
Plaintiffs are correct that the Anti-SLAPP Act
was “not enacted to immunize surreptitious for-hire
intelligence operatives who defame private persons.” Opp.
at 9. However, the Anti-SLAPP Act was enacted to protect
the right of advocacy on issues of public interest, and it
does not exempt advocates if they can be described as
“surreptitious for-hire intelligence operatives.” Nor does
the Anti-SLAPP Act immunize any defamatory statement
– whether the information was obtained surreptitiously
or openly, or for hire or for other reasons. The Act allows
defamation suits involving statements about issues of
public interest to proceed, provided that the subjects of
the alleged defamatory statement offers evidence that
they are likely to succeed. Plaintiffs have failed to provide
such evidence. Accordingly, the Court orders that:
1.

Defendants’ special motion to dismiss is granted.

2.

Defendants’ Rule 12(b)(6) motion to dismiss is
denied as moot.

66a
Appendix B
3.

This case is dismissed with prejudice.

Date: August 20, 2018
/s/				
Anthony C. Epstein
Judge

